Office of Inspector General
U.S. General Services Administration



Semiannual Report
to the Congress
October 1, 2006 - March 31, 2007
GSA s SIGNIFICANT MANAGEMENT CHALLENGES
The Congress requested the Inspectors General of major Federal agencies to report on the most
significant management challenges facing their respective agencies. Our strategic planning
process commits us to addressing these critical issues. The following table briefly describes the
challenges we have identified for GSA and references related work products issued by the GSA OIG
and discussed in this semiannual report.

CHALLENGES                BRIEF DESCRIPTION OF CHALLENGE                                PAGE

ACQUISITION               Merging GSA’s procurement organizations will yield a          2– 5
PROGRAMS                  single acquisition service that will award and administer
                          governmentwide contracts worth $40 to $50 billion.
                          With growing programs and shrinking numbers of
                          qualified acquisition personnel, attention to important
                          fundamentals, such as ensuring competition and
                          meaningful price analysis, has diminished.

CONTRACT                  GSA’s multibillion dollar acquisition programs have           5 –9
MANAGEMENT                expanded rapidly in terms of sales, variety, and complexity
                          of the procurements performed. A growing list of warning
                          signs throughout the acquisition process suggests that
                          the technical and management skills needed by the
                          procurement workforce to operate in this more
                          sophisticated arena are not keeping pace with these
                          new demands.

INFORMATION               Technology applications have increased exponentially          9 – 11
TECHNOLOGY                as “E-Gov” is used to better manage operations and
                          interface with the public, but complex integration and
                          security issues exist.

MANAGEMENT                Management controls have been streamlined, resulting          11 – 14
CONTROLS                  in fewer and broader controls, making it essential that
                          the remaining controls be emphasized and consistently
                          followed. The need for strong internal controls underlies
                          several of the other management challenges.

HUMAN CAPITAL             GSA has an aging workforce and is facing significant loss     14 – 15
                          of institutional knowledge due to retirements, including a
                          loss of key management staff over the past year. Better
                          recruitment and training programs are needed to develop
                          the 21st century workforce.

PROTECTION OF             GSA is responsible for protecting the life and safety of      No
FEDERAL FACILITIES        employees and public visitors in Federal buildings. The       Reports
AND PERSONNEL             increased risks from terrorism have greatly expanded the      This
                          range of vulnerabilities. A broadly integrated security       Period
                          program is required.

AGING FEDERAL             GSA is being challenged to provide quality space to           No
BUILDINGS                 Federal agencies using an aging, deteriorating inventory      Reports
                          of buildings and facing critical budgetary limitations in     This
                          its modernization program.                                    Period
             Foreword


I am pleased to report to the people of the United States and their elected
representatives in Congress that the Office of Inspector General (OIG) at
GSA has been successfully working on your behalf to identify waste, fraud,
and abuse in programs managed by GSA. For the period covered by this
semiannual report (SAR), over $256 million has been identified as funds
recommended for better use and questioned costs. The OIG has issued
73 audit reports. It has also made 400 referrals for criminal prosecution, civil
litigation, and/or administrative action—activities valuable in their own right,
as well as for their deterrent effect. This SAR includes the $98.5 million
settlement with Oracle, Inc. for PeopleSoft’s defective pricing. This
settlement is the largest civil settlement ever under the False Claims Act
involving GSA’s Multiple Award Schedule—the result of GSA OIG’s audit,
investigative, and legal work over many months, in cooperation with the
Department of Justice. All of these results provide to the American taxpayer
a return of many times the cost of OIG operations.

On October 10, 2006, the Deputy Attorney General established the National
Procurement Fraud Task Force, which makes procurement fraud a national
priority. I am honored to serve as its Vice Chair. As part of the task force,
we are working closely with the Department of Justice, other Inspectors
General, and law enforcement to prevent and combat procurement fraud
throughout the Federal Government. Working together with GSA, we hope
to assist GSA in accomplishing its crucial mission by maximizing results and
upholding the public trust placed in us by the taxpayers of our great nation.
After all, we all must make sure the American public is getting the most from
their hard earned tax dollars.

I want to express my appreciation for the accomplishments of all the OIG
employees and commend them for their continued professionalism,
dedication, and willingness to accept new challenges. I also wish to express
my appreciation to Congress, OMB, and the many employees of GSA for
their continued support.



Brian D. Miller
Inspector General
April 30, 2007
          Table of Contents

                                                                                              Page

Summary of OIG Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .v

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vii

OIG Organization Chart . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .xiv

OIG Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

  Acquisition Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

  Contract Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5

  Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .9

  Management Controls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11

  Human Capital . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .14

Promoting and Protecting Integrity . . . . . . . . . . . . . . . . . . . . . . . . . .16

Governmentwide Policy Activities . . . . . . . . . . . . . . . . . . . . . . . . . . .27

Professional Assistance Services . . . . . . . . . . . . . . . . . . . . . . . . . . .29

Statistical Summary of OIG Accomplishments . . . . . . . . . . . . . . . . .31

Appendices

Appendix I – Significant Audits from Prior Reports . . . . . . . . . . . . .39

Appendix II – Audit Report Register. . . . . . . . . . . . . . . . . . . . . . . . .42

Appendix III – Audit Reports over 12 Months Old, Final Agency
 Action Pending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .50

Appendix IV – Delinquent Debts. . . . . . . . . . . . . . . . . . . . . . . . . . . .58

Appendix V – Report over 6 Months Old with No Management
 Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .60

Appendix VI – Reporting Requirements . . . . . . . . . . . . . . . . . . . . . .61

Appendix VII – OIG Offices and Key Officials . . . . . . . . . . . . . . . . .62

This semiannual report may be accessed on the Internet at the following
address: http://www.gsa.gov/inspectorgeneral




                                                                October 1, 2006 – March 31, 2007 iii
                      Summary of OIG Performance

                       October 1, 2006 – March 31, 2007

OIG Accomplishments    Total financial recommendations                              $256,200,173

                       These include:

                       • Recommendations that funds be put to better use            $249,827,444

                       • Questioned costs                                            $6,372,729

                       Audit reports issued                                               73

                       Referrals for criminal prosecution, civil
                       litigation, and administrative action                             400

Results Attained       Management decisions agreeing with audit
                       recommendations, civil settlements, and
                       court-ordered and investigative recoveries                   $430,988,751

                       Indictments and informations on criminal referrals                 57

                       Cases accepted for criminal prosecution                            45

                       Cases accepted for civil action                                    22

                       Successful criminal prosecutions                                   32

                       Civil settlements                                                  5

                       Contractors/individuals suspended and debarred                    108

                       Employee actions taken on administrative referrals
                       involving GSA employees                                            13




                                                                    October 1, 2006 – March 31, 2007 v
                         Executive Summary



                    During this semiannual period, the OIG continued to direct its auditing and
                    investigative resources toward what we have identified as the major
                    management challenges facing GSA. We conduct audits, reviews, and
                    investigations to ensure the integrity of the Agency’s financial statements,
                    programs, and operations, and that the taxpayers’ interests are protected.
                    The OIG also continued to initiate actions to prevent fraud, waste, and
                    abuse, and to promote economy and efficiency throughout GSA.
                    Specifically, the OIG’s resources have been directed toward conducting
                    preaward reviews; financial and programmatic audits; management control
                    assessments; contract reviews; investigations on a myriad of fraud and
                    abuse related actions by GSA employees and government contractors; as
                    well as litigation support in civil fraud and enforcement actions, criminal
                    prosecutions, contract claims, and administrative actions all in an effort to
                    maintain the integrity of GSA programs and management.

                    Management Challenges
                    The following are significant reviews and cases that we have identified as
                    major issues facing GSA. The OIG continued to strive to provide the high
                    level of quality in our reviews and recommendations that we are known for
                    and which we believe necessary in order for GSA to continue leading the
                    government in contracts and procurements. During this semiannual period,
                    the focus has been on preaward contract reviews, acquisition programs,
                    contract management, information technology (IT), management controls,
                    human capital, civil settlements, criminal actions, and the integrity of Agency
                    management.

                    Acquisition Programs
                    The OIG received reimbursable funding from the Agency for its preaward
                    review program that provides information to contracting officers for use in
                    negotiating contracts. The pre-decisional, advisory nature of preaward
Contract preaward   reviews distinguishes them from other audits. This program provides vital
                    and current information to contracting officers enabling them to significantly
 review program
                    improve the government’s negotiating position and to realize millions of
                    dollars in savings on negotiated contracts. For this semiannual period, the
                    OIG performed preaward reviews of 49 contracts valued at an estimated
                    $4.8 billion. We recommended that more than $249 million of taxpayer
                    funds be put to better use. There are now more than 10,000 vendors doing
                    over $35 billion in business annually under GSA’s rapidly expanding
                    procurement programs. History has shown that for every dollar invested in
                    preaward contract reviews the government and taxpayers receive the benefit
                    of at least $10 in lower prices, or more favorable terms and conditions
                    (page 2).

                    The Federal Acquisition Service’s Streamlined Technology Acquisition
STARS Contract      Resources for Services (STARS) Governmentwide Acquisition Contract
                    (GWAC) is a small disadvantaged 8(a) business set-aside contract for
                    technology solutions. The STARS GWAC Center (Center) is responsible for


                                                                October 1, 2006 – March 31, 2007 vii
                                              Executive Summary



                                         STARS program development, contract awards, and contract administration.
                                         The Center awarded the STARS contract to 413 vendors in June 2004 as
                                         indefinite delivery, indefinite quantity contracts which have a base period of
                                         3 years and two 2-year options. The overall program ceiling is $15 billion.
                                         As of November 2005, 159 vendors had performed under the program with a
                                         total task order value of $273 million. We found that the Center has taken a
                                         proactive approach to developing and maintaining controls and that controls
                                         related to the accuracy of Office of Management and Budget (OMB) data,
                                         fair opportunity, split procurements, and other direct costs were reasonable,
                                         and that with minor adjustments, the Center could enhance assurance of
                                         program compliance in those areas. Relative to controls over other direct
                                         costs, we determined that controls could be enhanced if the Center modified
                                         the STARS contract to clearly explain the conditions under which users can
                                         deviate from the other direct cost limitations set forth in the contract. We
                                         also found that, despite the Center’s ambitious attempt to monitor every task
                                         order, there were out of scope task orders and disproportionate
                                         subcontracting. In their response to our report, management responded that
                                         the Center implemented all five of the audit recommendations (page 3).

                                         The objectives of our review of the Western Distribution Center (WDC) were
                                         to ascertain if the costs and savings identified in a Federal Supply Service
                                         (FSS) study were valid and whether the study’s savings should be used as a
  Western Distribution                   basis for similar modernizations at the Eastern Distribution Center (EDC).
        Center                           We generally agreed with the study’s assessment of costs and savings;
                                         however, there were significant factors not addressed in the study that
                                         should be considered in making decisions about modernizing the EDC. Our
                                         findings provided the following recommendations that received concurrence
                                         by the Commissioner, Federal Acquisition Service:

                                         • Conduct a business model evaluation or cost/benefit analysis of the EDC
                                           operating requirements.

                                         • Address the issue of increasing labor costs relative to declining sales at
                                           the WDC.

                                         • Continue efforts in reducing transportation costs at the WDC, in light of
                                           declining revenues (page 4).

                                         Contract Management
                                         The OIG, as part of the President’s Council for Integrity and Efficiency
                                         Katrina Working Group, assessed GSA’s effectiveness in its response to
                                         Hurricane Katrina. The Agency’s involvement in the Hurricane Katrina
                                         disaster response is derived from the National Response Plan (NRP) which
    Hurricane Katrina                    designates GSA as the primary and coordinating agency for Emergency
                                         Support Function (ESF) #7—Resource Support Annex. GSA’s mission
                                         under ESF #7 is to provide resources in support of the Federal Emergency
                                         Management Agency (FEMA) disaster relief efforts and GSA is reimbursed


viii Semiannual Report to the Congress
                           Executive Summary



                      by FEMA for salaries and travel related to this work. For Hurricane Katrina,
                      GSA contracting professionals awarded approximately $1 billion in contracts
                      on FEMA’s behalf. We found that, while GSA generally fulfilled its ESF #7
                      mission, the magnitude of Hurricane Katrina and GSA’s multi-regional
                      response underscored the need for improvements in the Agency’s
                      emergency contracting and management programs that support FEMA. A
                      primary concern is that GSA’s procurement role and relationship with FEMA
                      are not clearly defined. In our review of over 200 contracts and orders with
                      an aggregate value of $741 million, we found that contracting personnel did
                      not always award contracts that adequately protected government interests.
                      We also found contracts with poorly defined scopes of work and inadequate
                      pricing information (page 6).

                      Information Technology
                      GSA launched eOffer and eMod as the paperless means to streamline the
                      contract award and modifications process during 2004. eOffer/eMod are
                      Web-based applications that allow companies to electronically prepare and
                      submit contract proposals (offers) and current Multiple Award Schedules
                      (MAS) contract holders to prepare and submit contract modifications.
                      Though the number of electronic offers and modifications submitted by
                      vendors has increased over the last 3 years, overall utilization rates for
 eOffer and eMod      these two important Web applications remain low. On average, electronic
                      offers comprise only 9 percent of all offers received through the eOffer and
                      electronic modifications comprise only 4.5 percent of all modifications
                      received through eMod. In addition, although a primary goal for eOffer is to
                      reduce the amount of time involved in making contract awards, awards
                      based on electronic offers are taking longer to process than awards based
                      on paper offers (page 9).

                      Our FY 2006 review of GSA’s IT Security Program, as required by the
                      Federal Information Security Management Act (FISMA), assessed how well
                      controls had been implemented for ten selected Agency systems. GSA’s IT
                      Security Program has improved; however, additional management actions
                      are needed. Our system analyses found instances where system security
                      officials did not ensure that systems were properly secured. An analysis of
                      technical security controls for Web applications and Voice Over Internet
                      Protocol (VOIP) implementations found that GSA’s IT Security Program
IT Security Program   would benefit from a more proactive approach to addressing emerging IT
                      security risks. As in previous years, weaknesses were found with
                      implementation of GSA’s Certification and Accreditation process, and
                      contractor background investigations. Shortfalls in these key areas
                      demonstrate the need for improved accountability for individuals who
                      currently do not report to GSA’s Chief Information Officer but have key IT
                      security responsibilities for specific systems. Because effective
                      implementation of the IT Security Program at the system level is dependent




                                                                  October 1, 2006 – March 31, 2007 ix
                                           Executive Summary



                                      upon improved accountability for these individuals, there is a need for
                                      improved policy and procedures to establish standardized performance goals
                                      and measures (page 11).

                                      Management Controls
                                      GSA provides space for Federal agencies in over 8,000 buildings across the
                                      nation, and bills client-agencies over $7 billion each year for rental costs. In
                                      April 2005, the Public Buildings Service (PBS) migrated from using the
                                      System for Tracking and Administering Real Property as the primary billing
                                      source to a new rent billing process—Occupancy Agreement (OA) Billing.
                                      The main focus of the audit was to determine whether the OA Billing process
 Occupancy Agreement                  resulted in more accurate, easier to understand customer bills and, if not,
                                      what improvements are needed. We administered a March 2006 customer
       Billings
                                      satisfaction survey that received over 250 responses. The results found
                                      customer service issues with: a lack of detailed information on the
                                      customers’ rent bills regarding rate changes (43 percent dissatisfied); PBS
                                      not responding to customer calls or resolving questions in a timely manner
                                      (70 percent dissatisfied); and, inaccurate GSA points of contact listed on the
                                      rent bill (43 percent dissatisfied) (page 12).

                                      Under full service agreements for its vehicles, GSA Fleet provides its
                                      customers with Voyager charge cards to purchase fuel, oil, and related
                                      services. Fleet in turn pays these charges that, in FY 2006, amounted to
                                      8.7 million purchases totaling approximately $405 million. The Fleet card
                                      has the inherent vulnerabilities of credit card misuse. GSA management
                                      requested this audit to help assess whether its loss prevention procedures
                                      were working effectively, especially in monitoring Voyager Fleet card
 Fleet’s loss prevention              transactions. Fleet is in the process of establishing a national loss
         program                      prevention program that should enhance its ability to detect misuse and
                                      abuse, and correct a number of the weaknesses we noted. We found that
                                      the decentralized program that was operating at the time of our audit was
                                      applied unevenly, the detection criteria the field locations used for identifying
                                      suspect charges varied, and the criteria identified high numbers of valid
                                      transactions (or false positives) along with improper ones, weakening the
                                      program’s effectiveness (page 13).

                                      In response to a tenant agency’s request, we reviewed the overtime utility
                                      and engineering billings to determine whether GSA properly billed two tenant
                                      agencies. The review found that GSA’s billings for these offices had been
                                      inaccurate, resulting in both over and underbillings for FY’s 2004 through
                                      2006. Taken as a whole these represent net underbillings of approximately
    Overtime billings                 $118,185 for the U.S. Attorney’s Office and $13,309 for the District Court.
                                      The net overbillings for the engineering usage ($4,844) resulted because the
                                      cost of the engineer was not properly allocated between the two agencies.
                                      The net underbillings for utility usage ($136,338) resulted from input errors in
                                      the automated tool used to estimate the usage and over adjustments for the
                                      overlapping hours (page 13).


x Semiannual Report to the Congress
                      Executive Summary



                 Human Capital
                 Telework provides GSA associates the opportunity to work from home or at a
                 telecommuting center on an occasional or recurring basis. In FY 2001, the
                 Department of Transportation and Related Agencies Appropriation Act
                 included a provision directing that, “Each executive agency shall establish a
                 policy under which eligible employees of the agency may participate in
                 telecommuting to the maximum extent possible without diminished employee
                 performance.’” In response to this Act, GSA established a goal to be a
                 leader in the development and overall use of flexible workplace programs,
GSA’s Telework   including telework. Our review of the Telework Program found issues with its
  Program        implementation in two of the three regions selected for testing, such as
                 insufficient training to ensure proper use of teleworking. Furthermore, the
                 monitoring controls put in place to track the number of employees
                 participating in the program are not sufficient to ensure the accuracy of
                 externally reported data. Finally, GSA’s telework guidance has not been
                 updated in 10 years and is inconsistent with the Federal telework guidelines
                 published in the Federal Register, including determination of the duty station
                 for correct pay computations (page 14).

                 Promoting and Protecting Integrity
                 This period we obtained criminal, civil, and other monetary recoveries
                 totaling more than $103.2 million. Our work involved a wide variety of
                 criminal and civil investigations and reviews, and participation in joint task
                 forces with other Federal law enforcement agencies (page 16).

                 Civil Settlements—Highlights
                 Oracle, Inc. agreed to pay $98.5 million to settle its potential civil False
                 Claims Act liability arising from a qui tam complaint filed against PeopleSoft,
                 Inc. Oracle purchased PeopleSoft in 2005, and succeeded to PeopleSoft’s
                 MAS contract for software and maintenance. The investigation substantiated
                 that PeopleSoft had grossly misrepresented its commercial pricing to GSA in
                 three sets of negotiations under that MAS contract (page 16).

                 GovConnection, Inc., formerly ComTeq Federal, Inc., agreed to pay
                 $2.55 million to settle its potential civil False Claims Act liability relating to its
                 GSA MAS contract for the sale of information technology items to Federal
                 agencies (page 16).

                 Criminal Actions—Highlights
                 A joint investigation with the U.S. Naval Criminal Investigative Service and
                 the Defense Contract Audit Agency was initiated when it was alleged that a
                 technical services company submitted false and fraudulent invoices to the
                 U.S. Navy for work done under various task orders issued under a GSA
                 MAS contract. The president of the company pled guilty on behalf of his




                                                                  October 1, 2006 – March 31, 2007 xi
                                             Executive Summary



                                        company to making false claims and entered into a plea agreement to pay
                                        restitution in the amount of $642,000 to the government (page 17).

                                        A complaint was filed against a state senator and former mayor of
                                        Minnewaukan, North Dakota, for theft of government property and for
                                        fraudulently applying for vehicle title certificates. The investigation disclosed
                                        that he instructed the treasurer to issue a city check to the North Dakota
                                        State Agency for Surplus Property so that the purchase of the first truck had
                                        the appearance of a legitimate city purchase, and converted the truck for his
                                        personal use by having it titled in his name. This ongoing investigation is
                                        being prosecuted by the State’s Attorney’s Office, County of Burleigh, North
                                        Dakota (page 18).

                                        An investigation was initiated based on a proactive project developed
                                        through the Electronic Crimes Task Force, U.S. Secret Service, Baltimore
                                        Field Office, MD. Merchandise with an estimated value of $329,000 was
                                        purchased with fictitious documents, unlawful access to checking accounts,
                                        and government/corporate credit cards, and then was returned for cash.
                                        Eight individuals were arrested for committing theft and fraud through the
                                        use and manipulation of electronic media (page 19).

                                        The OIG continues to be a principal participant in the New York Electronic
                                        Crimes Task Force (NYECTF), which has been investigating
                                        telecommunications fraud primarily involving Federal facilities within the New
                                        York City metropolitan area.

                                        • Several individuals were making unauthorized wire transfers out of bank
                                          accounts maintained for several United Nations (UN) Missions into various
                                          other bank accounts located throughout New York City. A facsimile
                                          transmission would be sent to Chase Manhattan Bank (Chase) requesting
                                          a wire transfer that purported to originate from bank accounts maintained
                                          for several UN Missions. Chase executed these requests and the scheme
                                          has resulted in a loss of approximately $240,000. Four individuals have
                                          been arrested and subsequently indicted on charges of conspiracy to
                                          commit bank fraud (page 21).

                                        • An individual hacked into the bank account of Penton Learning Systems
                                          LLC, New York City and illegally wire transferred over $81,000 into his
                                          personal bank account. He has been remanded to the custody of the
                                          New York State Department of Correction (page 21).

                                        Fleet Charge Card Abuse—Highlights
                                        The OIG has an ongoing proactive investigative project to identify and
                                        investigate fraud associated with the misuse of GSA issued Fleet charge
                                        cards. During this semiannual period, 13 individuals pled guilty in
                                        connection with cases arising out of Fleet charge card investigations
                                        (page 21).



xii Semiannual Report to the Congress
     Executive Summary



Suspension and Debarment Initiative—Highlights
During this reporting period, the OIG made 80 referrals for consideration of
suspension/debarment to the GSA Office of Acquisition Policy. GSA issued
108 suspension and debarment actions based on current and previous OIG
referrals (page 23).

OIG Hotline—Highlights
The OIG received 1,235 Hotline contacts during this reporting period. Of
these contacts, 165 Hotline cases were initiated. In 70 of these cases,
referrals were made to GSA program officials for review and action;
42 cases were referred to other Federal agencies for follow up; and, 36 were
referred for OIG criminal/civil investigations or audits (page 24).

Summary of Results
The OIG made over $256 million in financial recommendations to better use
government funds; made 400 referrals for criminal prosecution, civil litigation,
and administrative actions; reviewed 162 legislative and regulatory actions;
and received 1,235 Hotline contacts. This period, we achieved savings from
management decisions on financial recommendations, civil settlements, and
investigative recoveries totaling over $430.9 million. (See page v for a
summary of this period’s performance.)




                                            October 1, 2006 – March 31, 2007 xiii
                                        OIG Organization Chart


                                             Inspector General
                                                Brian D. Miller                              Advisor
                                          Deputy Inspector General                       Robert M. Samuels
                                        Joseph M. Mastropietro (Acting)


            Office of Counsel to the IG                               Office of Internal Evaluation & Analysis
                  Kevin A. Buford                                                  Peter J. Coniglio
                 Counsel to the IG                                                     Director


     Office of Administration                   Office of Audits                     Office of Investigations
          Arrie Etheridge                      Andrew Patchan, Jr.                      Charles J. Augone
      AIG for Administration                     AIG for Auditing                     AIG for Investigations


        Human Resources                           Audit Operations Staff                 Investigations Operations
            Division                                                                              Division

                                                    Administration &
            Information                            Data Systems Staff
                                                                                             Regional Offices
        Technology Division                                                                   Washington, DC
                                                      Information                               New York
                                                 Technology Audit Office                         Atlanta
         Administrative &                                                                        Chicago
      Financial Management                                                                     Kansas City
                                                      Real Property                             Fort Worth
             Division
                                                                                              San Francisco
                                                       Audit Office
                                                                                                 Auburn

                                                 Finance & Administrative
                                                       Audit Office                              Sub-Offices
                                                                                                   Boston
                                                                                                 Philadelphia
                                                  Acquisition Programs
                                                      Audit Office


                                                  Contract Audit Office



                                                    Field Audit Offices
                                                     Washington, DC
                                                       New York
                                                      Philadelphia
                                                        Atlanta
                                                        Chicago
                                                      Kansas City
                                                       Fort Worth
                                                     San Francisco




xiv Semiannual Report to the Congress
                                  OIG Profile



                      The GSA OIG was established on October 1, 1978 as one of the original
                      12 OIGs created by the Inspector General Act of 1978. The OIG’s five
                      components work together to perform the missions mandated by Congress.

Organization          The OIG provides nationwide coverage of GSA programs and activities. Our
                      components include:

                      • The Office of Audits, an evaluative organization staffed with auditors and
                        analysts who provide comprehensive coverage of GSA operations through
                        program performance reviews, assessment of management controls, and
                        financial and compliance audits. The office also conducts external
                        reviews in support of GSA contracting officials to ensure fair contract
                        prices and adherence to contract terms and conditions. The office
                        additionally provides research, benchmarking, and other services to assist
                        Agency managers in evaluating and improving their programs.

                      • The Office of Investigations, an investigative organization that conducts
                        a nationwide program to prevent, detect, and investigate illegal and/or
                        improper activities involving GSA programs, operations, and personnel.

                      • The Office of Counsel, an in-house legal staff that provides legal advice
                        and assistance to all OIG components, represents the OIG in litigation
                        arising out of or affecting OIG operations, and manages the OIG
                        legislative/regulatory review.

                      • The Office of Internal Evaluation and Analysis, a quality control staff
                        that provides management assessments of OIG operations and conducts
                        internal investigations and reviews at the direction of the Inspector
                        General.

                      • The Office of Administration, a professional staff that provides
                        information technology, budgetary, administrative, personnel, and
                        communications support and services to all OIG offices.

Office Locations      The OIG is headquartered in Washington, DC, at GSA’s Central Office
                      Building. Field audit and investigation offices are maintained in Boston, New
                      York, Philadelphia, Atlanta, Chicago, Kansas City, Fort Worth, San
                      Francisco, Auburn, and Washington, DC. (A contact list of OIG offices and
                      key officials is provided in Appendix VII.)

Staffing and Budget   As of March 31, 2007, our on-board strength was 298 employees. The
                      OIG’s Fiscal Year (FY) 2007 budget was $58.07 million.




                                                                  October 1, 2006 – March 31, 2007 1
                                       Management Challenges



                                      Each year since 1998, we have identified and shared with Congress and
                                      senior GSA management what we believe to be the major challenges facing
                                      the Agency. (The current list is summarized on the front inside cover.) This
                                      period we continued our work in addressing these challenges, making
                                      recommendations, and working with management to improve Agency
                                      operations. The following sections highlight our activities in these areas.

                                      Acquisition Programs
                                      GSA provides Federal agencies with products and services valued in the
                                      billions of dollars through various types of contracts. We conduct reviews of
                                      these activities to ensure that the taxpayers’ interests are protected.

                                      Significant Contract Preaward Reviews
                                      The OIG’s preaward review program provides information to contracting
                                      officers for use in negotiating contracts. The pre-decisional, advisory nature
                                      of preaward reviews distinguishes them from other audits. This program
                                      provides vital and current information to contracting officers, enabling them
                                      to significantly improve the government’s negotiating position and to realize
                                      millions of dollars in savings on negotiated contracts.

                                      This period, the OIG performed preaward reviews of 49 contracts with an
                                      estimated value of $4.8 billion. We recommended that more than
 Over $249 million in                 $249 million of funds be put to better use.
   savings can be
                                      Three of the more significant Multiple Award Schedule (MAS) contracts we
  achieved through                    reviewed had projected governmentwide sales totaling $676 million. The
   lower contract                     review findings recommended that $113 million in funds be put to better use.
       prices.                        The reviews disclosed that these vendors offered prices and labor rates to
                                      GSA that were not as favorable as the prices and rates other customers
                                      received from these vendors. For example, contrary to one company’s
                                      disclosure, the offer to GSA was not reflective of the company’s most
                                      favored customer pricing. Another company did not disclose its commercial
                                      sales practices for some classes of customers, and did not disclose its
                                      prevalent discount practice to its largest class of customers. The third
                                      company proposed discounts that are significantly less favorable than those
                                      currently being offered under the existing GSA contract. According to the
                                      company, the rationale is to build in the flexibility to reduce its prices if the
                                      company has to bid competitively for Federal procurements. This pricing
                                      strategy is only applied to GSA and not the company’s commercial
                                      customers.

                                      There are now more than 10,000 vendors doing over $35 billion in business
                                      annually under GSA’s rapidly expanding procurement programs. History has
                                      shown that for every dollar invested in preaward contract reviews, at least
                                      $10 in lower prices or more favorable terms and conditions are attained for
                                      the benefit of the government and the taxpayer. The Office of Management



2 Semiannual Report to the Congress
                        Management Challenges



                       Acquisition Programs (continued)

                       and Budget (OMB) has long recognized the increasing dollar value of GSA’s
                       contract activities and our limited resources in providing commensurate audit
                       coverage. Through the Federal Supply Service (FSS) and Federal
                       Technology Service (FTS) contract program revenues, now combined into
                       the Federal Acquisition Service, OMB officials have provided us additional
                       financial support to increase our work in this area. These funds enabled us
                       to hire additional staff to support expanded contract review activities
                       including, primarily, an increase in preaward contract reviews as well as
                       more contract performance reviews that evaluate contractors’ compliance
                       with pricing, billing, and terms of their contracts, and periodic program
                       evaluations to assess the efficiency, economy, and effectiveness of
                       contracting activities.

                       During this 6-month period, management decisions were made on 33 of the
                       preaward reports issued during the last year, which recommended that more
                       than $324 million of funds be put to better use. Management agreed with
                       99 percent of the recommended savings.

                       FAS’ Streamlined Acquisition Resources for Services (STARS)
                       Governmentwide Acquisition Contract (GWAC)
                       The Federal Acquisition Service’s STARS GWAC is a small disadvantaged
                       8(a) business set-aside contract for technology services in eight technology
                       service-related functional areas. The STARS contract was awarded to
                       413 vendors in June 2004 as indefinite delivery, indefinite quantity contracts
                       that have a base period of 3 years and two 2-year options. The overall
                       program ceiling cost is $15 billion. As of November 2005, 159 vendors had
                       performed under the program with a total task order value of $273 million.
                       The STARS GWAC Center is responsible for STARS program development,
                       contract awards, and contract administration. These responsibilities include
                       ensuring fair opportunity for STARS vendors, reporting accurate program
                       data to OMB, and prohibiting split procurements, out of scope task orders,
    Risk based         and disproportionate subcontracting, and other direct costs. Our review
approach needed to     objective was to determine if the Center’s controls over the administration of
                       the STARS contracts were adequate to provide reasonable assurance that
 improve oversight     the contracts were properly utilized.
of $15 billion small
disadvantaged 8(a)     We found that the Center has taken a proactive approach to developing and
                       maintaining controls to ensure ordering contracting officers and STARS
 business set-aside    vendors use the GWAC properly. We found that controls related to the
      contract.        accuracy of OMB data, fair opportunity, split procurements, and other direct
                       costs were reasonable and, with minor adjustments, the Center could
                       enhance assurance of program compliance in those areas. Control
                       initiatives include conducting training for contracting officers and vendors,
                       reviewing task order information, and tracking task orders through
                       completion. Relative to controls over other direct costs, we determined that
                       controls could be enhanced if the Center modified the STARS contract to

                                                                    October 1, 2006 – March 31, 2007 3
                                       Management Challenges



                                      Acquisition Programs (continued)

                                      clearly explain the conditions under which users can deviate from the other
                                      direct cost limitations set forth in the contract.

                                      We also found that, despite the Center’s attempts to monitor task orders, out
                                      of scope task orders and disproportionate subcontracting occurred. Two of
                                      the ten task orders in our sample appeared out of scope and the Center did
                                      not question them. The statements of work for both indicated that, in
                                      addition to functional activities covered in the STARS program, other work
                                      was included that appeared outside the program. More specifically, call
                                      centers were to be staffed by key personnel with special areas of expertise
                                      or experience, such as real estate or government program regulations.
                                      These requirements are not IT services and not within the intended purpose
                                      of the program.

                                      We also identified task orders in which the subcontractor performed a
                                      significant portion of the work. Highly disproportionate subcontracting levels
                                      impair the vendor’s ability to develop its own staff and expertise, and is
                                      contrary to the purpose of the 8(a) program. The Center advised that, at the
                                      time of review, personnel turnover had contributed to the lack of attention to
                                      disproportionate subcontracting issues.

                                      We recommended that the Center take corrective action to address out of
                                      scope task orders, focus its task orders review efforts on the highest risk
                                      orders, develop standardized procedures for its reviews of subcontracting
                                      and task order statements of work, and clarify the contract language
                                      regarding limitations on other direct costs.

                                      In its response to our report, management stated that the Center has
                                      implemented all five of the audit recommendations.

                                      Operational Savings at the Western Distribution Center
                                      In 2003 and 2004 GSA’s Federal Supply Service (FSS), now a part of the
                                      Federal Acquisition Service (FAS), relocated the Western Distribution Center
                                      (WDC) from Rough and Ready Island, Stockton, California, to the Sharpe
                                      Depot at French Camp, California, a more modern facility. Following that
                                      move, FSS’s Office of Global Supply did a study (the study) of the
                                      operations of the Sharpe Depot WDC to identify operational costs and
                                      savings associated with the move to the Sharpe Depot in five major
                                      categories: labor, transportation, information technology support, operating
                                      supplies, and rent.

                                      We reviewed the study to ascertain if we could validate its findings of costs
                                      and savings, and to determine if we believe that those findings should be
                                      used as a basis for deciding if, and how, FAS should modernize the Eastern
                                      Distribution Center (EDC) in Burlington, New Jersey. In conducting our



4 Semiannual Report to the Congress
                       Management Challenges



                      Acquisition Programs (continued)

                      review, we compared the costs of operating the WDC in its old Rough and
                      Ready Island location in 2002, with the costs of operating it at the Sharpe
                      Depot in 2005. Our analysis adjusted the costs to account for inflation.

                      In general, while we had some differences with the study’s assessment of
                      the costs and savings associated with the move, we agreed with its findings.
                      We also found, however, that there are significant factors not addressed in
Validated savings     the study, that should be addressed in making decisions about the
                      modernization of the EDC. For example, the move to the Sharpe Depot was
  at the Western      expected to save on labor costs. It did not. Instead, we found that since the
Distribution Center   move the WDC has seen increasing labor costs coupled with decreasing
   do not justify     sales revenues. We also found that significant operational differences
                      between the WDC and the EDC make it difficult to conclude that the
 modernization of     transportation savings realized by the WDC’s move could be expected to
    the Eastern       yield the same savings if the EDC is modernized. While the WDC’s move
Distribution Center   did result in savings in rent, those savings were site-specific and are not
                      necessarily applicable in an analysis of the costs and benefits of a
due to operational    modernization of the EDC.
    differences.
                      In our report, we recommended that the Commissioner of FAS:

                      • Conduct a business model evaluation or cost/benefit analysis of the EDC
                        operating requirements, rather than relying on the study of the WDC and
                        extrapolating from those findings.

                      • Address the issue of the rising labor costs relative to declining sales at the
                        WDC.

                      • Continue efforts to reduce transportation costs at the WDC, in light of
                        declining revenues.

                      The Commissioner agreed with the report’s recommendations.

                      Contract Management
                      GSA increasingly accomplishes its mission by using contractors to provide
                      client services and products. Its multibillion dollar acquisition programs have
                      expanded rapidly in terms of size, variety, and complexity of the
                      procurements performed. While many GSA contracts are well crafted and
                      properly administered, we continue to find a significant number of
                      weaknesses. Our audit work in recent years has revealed a growing list of
                      warning signs throughout the acquisition process that suggest that training
                      and improved technical and management skills are needed for the
                      procurement workforce to operate in this more sophisticated arena and keep
                      pace with new demands.




                                                                    October 1, 2006 – March 31, 2007 5
                                       Management Challenges



                                      Contract Management (continued)

                                      Hurricane Katrina
                                      The OIG, as part of the President’s Council for Integrity and Efficiency
                                      Katrina Working Group, assessed GSA’s effectiveness in its response to
                                      Hurricane Katrina. GSA’s involvement in the Hurricane Katrina disaster
                                      response is derived from the National Response Plan (NRP), the Federal
                                      Government’s all-hazards plan that provides the structure and mechanisms
     Improvements                     for national-level policy and operational coordination for domestic
                                      management of Incidents of National Significance. The NRP designates
        needed in                     GSA as the primary and coordinating agency for Emergency Support
       emergency                      Function (ESF) #7—Resource Support Annex. GSA’s mission under ESF #7
     contracting for                  is to provide resources in support of the Federal Emergency Management
                                      Agency (FEMA) disaster relief efforts and is reimbursed by FEMA for
     more effective                   salaries and travel related to this work. Under ESF #7, GSA contracting
   disaster response                  officers place orders and award contracts to meet FEMA requirements and
     and to ensure                    handle related contract administrative functions, such as processing contract
                                      modifications and closeouts. FEMA provides Contracting Officer Technical
     better pricing.                  Representatives to oversee contractor performance, and FEMA also pays
                                      the contractors directly for these supplies and services. For Hurricane
                                      Katrina, GSA contracting professionals awarded approximately $1 billion in
                                      contracts on FEMA’s behalf.

                                      We found that, while GSA generally fulfilled its ESF #7 mission, the
                                      magnitude of Hurricane Katrina and GSA’s multi-regional response
                                      underscored the need for improvements in the Agency’s emergency
                                      contracting and management programs that support FEMA. A primary
                                      concern is that GSA’s procurement roles and its relationship with FEMA are
                                      not clearly defined. Neither the NRP nor a Memorandum of Understanding
                                      (MOU) between GSA and FEMA clearly enumerate these roles and
                                      responsibilities. In fact, the MOU was signed in 1989 and has not been
                                      updated to reflect the NRP that was issued in 2004. This issue, along with
                                      inadequate communication between GSA and FEMA, contributed to
                                      problems with contract administration and oversight. Additionally, contracting
                                      personnel faced a number of obstacles, including the need for
                                      comprehensive guidance and training for emergency contracting, improved
                                      rotation scheduling, and additional supervision. Further, contracting officers,
                                      in many cases, had limited familiarity with the items they were procuring and
                                      were expected to expedite the contracting process for these life-sustaining
                                      goods and services. These shortcomings impacted the effectiveness of
                                      GSA’s contracting efforts and exposed the government to unnecessary risks.

                                      In our review of over 200 contracts and orders with an aggregate value of
                                      $741 million, we found that contracting personnel did not always award
                                      contracts that adequately protected government interests. Sixty-one of the
                                      contracts reviewed (29 percent) did not contain evidence of any form of




6 Semiannual Report to the Congress
 Management Challenges



Contract Management (continued)

contractor responsibility determination. Further, contracting personnel failed
to perform adequate price reasonableness determinations for nearly half
(46 percent) of the contract actions reviewed. As a result, GSA awarded
some contracts that did not provide fair and reasonable pricing. For
instance, contract pricing for a mobile shower procurement was 164 percent
higher than that for a U.S. Forest Service contract offering similar products
and services. In another instance, GSA awarded two contracts to one
vendor for the same product and services, but pricing for one contract was
nearly triple that of the other. We also found contracts with poorly defined
scopes of work and inadequate pricing information. In one case, GSA
issued an Order for Supplies or Services with a not-to-exceed value of
$50 million with a vague, one-paragraph scope of work containing no
specific line item pricing information. GSA also issued a Blanket Purchase
Agreement with a $12 million not-to-exceed threshold with similar
deficiencies.

Further, some of the administrative aspects of carrying out GSA’s functions
under ESF #7 are dealt with inconsistently among regions. The regional
emergency management teams, which serve as the lead support, have
developed their own practices for managing mission assignments and for
processing procurement requests. This can be problematic for tracking or
reconciling data when, such as with Hurricane Katrina, several different
regions are called upon to provide support. Additionally, controls over the
process to identify and charge reimbursable labor and travel costs were
unclear, causing GSA to underbill FEMA for Hurricane Katrina-related
support costs by approximately $180,000.

To improve its response to future disaster situations, we recommended that
GSA:

• Collaborate with FEMA to update the 1989 Memorandum of
  Understanding.

• Establish national emergency contracting guidance, standard operating
  procedures, and training for its emergency management program to
  address contracting requirements and processes related to ESF #7
  emergency contracting.

• Ensure the proper supervision and oversight of contracting personnel
  supporting FEMA under ESF #7.

• Develop alternative contracting methods that would mitigate the risks of
  limited availability of contractor responsibility information and limited
  sourcing capabilities during disaster situations.




                                             October 1, 2006 – March 31, 2007 7
                                       Management Challenges



                                      Contract Management (continued)

                                      • Coordinate with FEMA to explore the use of a centralized information
                                        system to automatically capture ESF #7 procurement data.

                                      • Ensure consistent regional emergency management program practices.

                                      • Examine the current billing methodology to ensure that costs incurred by
                                        GSA to support FEMA can be accurately and completely identified and
                                        billed to FEMA.

                                      The GSA Chief of Staff concurred with the report recommendations.

                                      Disaster Reporting Through the Federal Procurement Data
                                      System–Next Generation
                                      The Federal Procurement Data System–Next Generation (FPDS–NG)
                                      provides a searchable repository of information about Federal Government
                                      contracts. It is a Web-based system that is administered by GSA on behalf
                                      of OMB. Under the Federal Acquisition Regulation, executive agencies and
                                      departments are responsible for collecting and reporting the information to
                                      FPDS–NG, making it available to the general public. This is a particularly
                                      valuable tool in helping to oversee the hundreds of billions of dollars that
                                      Federal agencies spend annually. The reliability of the data, which was
                                      criticized in the past by both our office and the Government Accountability
                                      Office, takes on even more importance now that the data will likely be used
                                      to meet the Federal Funding Accountability and Transparency Act of 2006.
                                      The goal of this new legislation is to expand the public’s ability to review
  Data on billions of                 Federal spending by forming a single searchable database.
 dollars in Hurricane
                                      The magnitude of spending in response to Hurricane Katrina highlighted the
   Katrina disaster                   importance of timely, accurate, and reliable data in FPDS–NG. We
 relief spending was                  performed a limited scope review that focused on determining if FPDS–NG
  not accurately and                  accurately reported Federal procurements related to response and recovery
                                      efforts for Hurricane Katrina. We found that, until recently, the data was not
  promptly recorded                   timely and that some of the data was inaccurate or incomplete. For
     in FPDS-NG.                      example, FEMA contracting records showed that as of October 21, 2005,
                                      $3.7 billion in contracts had been awarded to support the Federal response
                                      to Hurricane Katrina; however, FPDS–NG showed only $608 million on
                                      October 24, 2005, for the entire Federal Government response to Hurricane
                                      Katrina. Generally, we found two issues that affected the timeliness and
                                      accuracy of data:

                                      • Initially there was no way to track Hurricane Katrina-related procurements
                                        in the system. National Interest Action codes have since been instituted
                                        to specifically identify disaster related procurements.




8 Semiannual Report to the Congress
                        Management Challenges



                       Contract Management (continued)

                       • Data from agencies playing a large role in the response and recovery
                         effort was not being downloaded directly into FPDS–NG, but instead
                         recorded on various spreadsheets for later input into FPDS–NG. This
                         caused errors and omissions of Hurricane Katrina contract data in the
                         FPDS–NG database resulting in a significant understatement of contract
                         costs related to the recovery effort. Expenditures by the Department of
                         Homeland Security, the Department of Defense, and the General Services
                         Administration initially made up the majority of the spending for Hurricane
                         Katrina.

                       On March 9, 2007, OMB issued guidelines to agencies that established a
                       requirement to verify and validate data being entered into FPDS–NG.
                       Therefore, our report made no recommendations.

                       Information Technology
                       GSA is in the process of replacing or upgrading a number of its legacy
                       information systems to improve performance and take advantage of
                       technological advances. Since GSA has had difficulty sharing usable data
                       between systems, many of the new IT projects are intended to go beyond
                       automating current business functions and to create real change in the way
                       that GSA does business. However, GSA systems development projects
                       have typically experienced significant schedule delays and cost overruns,
                       the need for frequent redesign, and a prolonged period of time in
                       development.

                       GSA’s Electronic Contract Proposal and Modification System
                       GSA launched eOffer and eMod as the paperless means to streamline the
                       contract award and modification process in May and July of 2004,
                       respectively. eOffer/eMod are Web-based applications that allow companies
 Overall utilization   to electronically prepare and submit contract proposals (offers) and current
      rates for        MAS contract holders to prepare and submit contract modifications. The
                       E-Government Act of 2002 requires Federal agencies to implement
   eOffer/e/Mod        electronic signature capability for secure electronic transactions with the
applications remain    government using the E-Authentication initiative, and eOffer/eMod is the first
 low and security      system within GSA to implement E-Authentication capabilities. Vendors
                       submitting electronic offers and/or modifications are able to sign using digital
   controls need       certificates to create a legally binding electronic contract. Our overall
  strengthening.       objective for this review was to determine whether eOffer/eMod are realizing
                       expected benefits, including delivery of functional, managerial, and user
                       requirements for the system and if sufficient security controls have been
                       designed and implemented.




                                                                     October 1, 2006 – March 31, 2007 9
                                        Management Challenges



                                       Information Technology (continued)

                                       While eOffer/eMod were intended to streamline the contract award and
                                       modification process as part of a paperless environment, most offers and
                                       modification requests are still being submitted on paper rather than
                                       electronically through these important Web applications as was expected.
                                       Though the number of electronic offers and modifications submitted by
                                       vendors has increased over the last 3 years, overall utilization rates for
                                       these two Web applications remain low. On average, electronic offers
                                       comprise only 9 percent of all offers received through eOffer and electronic
                                       modifications comprise only 4.5 percent of all modifications received through
                                       eMod. In addition, although a primary goal for eOffer is to reduce the
                                       amount of time involved in making contract awards, awards based on
                                       electronic offers are taking longer to process than awards based on paper
                                       offers. Contracting officials have indicated that issues with system
                                       functionality have hindered their ability to process electronic offers in a timely
                                       manner. Further, GSA has not established specific performance measures
                                       needed to assess customer satisfaction or overall system performance.

                                       We also found that GSA did not adequately consider specific Web
                                       application security risks prior to system deployment. While specific
                                       technical security controls have improved, security management for
                                       eOffer/eMod needs to be strengthened in response to reported security
                                       vulnerabilities. Specifically, a comprehensive Certification and Accreditation
                                       process to verify the adequacy of system security controls for eOffer/eMod
                                       and E-Authentication risk assessment activities has not been completed.

                                       In our March 6, 2007 report, we recommended that the Commissioner,
                                       Federal Acquisition Service:

                                       • Closely analyze eOffer/eMod usage rates and develop strategies to
                                         address the causes of low usage and address system and process
                                         concerns raised by contracting officials to improve electronic offer
                                         processing times and ensure that the system addresses evolving Agency
                                         needs and requirements.

                                       • Develop an eOffer/eMod business case or an update to the Federal
                                         Supply Service–19 business case to include system specific performance
                                         goals and measures for monitoring actual performance compared to
                                         expected results.

                                       • Ensure that system security controls include: (1) completion of the
                                         eOffer/eMod Certification and Accreditation in accordance with GSA Chief
                                         Information Officer IT Security Policy and procedures, (2) documentation
                                         for key security decisions and processes related to the system, and
                                         (3) development of a proactive approach for identifying and addressing
                                         Web application security weaknesses.



10 Semiannual Report to the Congress
                       Management Challenges



                      Information Technology (continued)

                      The Commissioner concurred with our findings and identified actions
                      underway to address these issues.

                      Summary of IT Controls in 10 Systems
                      Our FY 2006 review of GSA’s Information Technology (IT) Security Program,
                      as required by the Federal Information Security Management Act (FISMA),
                      assessed the program and how well program controls had been
                      implemented for 10 selected Agency systems. We reported the results of
                      that review in our last semiannual report. In January 2007, we issued
                      10 restricted letters to the system owners and the GSA Chief Information
                      Officer detailing the results of our system specific security control
                      assessments, including results from technical vulnerability scanning. The
                      letters formally conveyed specific security information, that was discussed
                      with security officials during our FISMA audit, to assist GSA management
                      with ongoing corrective actions.

                      GSA’s IT Security Program continues to improve but additional management
    Standardized      focus is needed. Sample systems scanned in 2006 demonstrated a
 performance goals    decrease in the number of critical vulnerabilities from 140 in 2005 to 19 in
   and measures       2006. However, our system analyses found instances where system
                      security officials did not ensure that systems were properly secured. An
  needed to ensure    analysis of technical security controls for Web applications and Voice Over
     security of      Internet Protocol (VOIP) implementations found that GSA’s IT Security
individual systems.   Program would benefit from a more proactive approach to addressing
                      emerging IT security risks. As in previous years, we again found
                      weaknesses with implementation of GSA’s Certification and Accreditation
                      process, contractor background investigations, and contractor provided
                      security solutions. Shortfalls in these key areas demonstrate the need for
                      improved accountability for individuals who currently do not report to GSA’s
                      Chief Information Officer but have key IT security responsibilities for specific
                      systems. Because effective implementation of the IT Security Program at
                      the system level is dependent upon improved accountability for these
                      individuals, there is a need for improved policy and procedures to establish
                      standardized performance goals and measures.

                      Management Controls
                      Multiple management controls and extensive supervisory reviews have been
                      replaced, through streamlining efforts, by fewer and broader controls,
                      making it essential that the remaining control processes be emphasized and
                      consistently followed. Streamlined processes have helped GSA achieve its
                      goal of serving customers more quickly and efficiently; however, the Agency
                      is exposed to the risk of mismanagement and abuse if program officials do
                      not ensure the faithful application of existing safeguards.




                                                                   October 1, 2006 – March 31, 2007 11
                                        Management Challenges



                                       Management Controls (continued)

                                       PBS’s Use of Occupancy Agreements as a Billing Source
                                       GSA provides space for Federal agencies in over 8,000 buildings across the
                                       nation, and bills client agencies over $7 billion each year for rental costs. In
                                       April 2005, the Public Buildings Service (PBS) migrated from using the
                                       System for Tracking and Administering Real Property as the primary billing
                                       source to a new rent billing process—Occupancy Agreement (OA) Billing.
                                       This new billing process extracts billing data directly from the current OA that
                                       PBS has with a client agency. Anticipated advantages from OA billing
                                       included stabilizing the bill by isolating the individual rent bill from the effect
                                       of changes that occur elsewhere in the building and improving the accuracy
                                       of the bill corresponding to the current OA. The main focus of the audit was
                                       to determine whether the OA Billing process resulted in more accurate,
        Further                        easier to understand customer bills and, if not, what improvements are
  improvements are                     needed.
      needed in
                                       According to rent bill customers, and PBS employees, the OA Billing process
    processes for                      has resulted in improvements in the accuracy and consistency of rent bill
     billing client                    data, but further improvements in meeting customer expectations are
  agencies $7 billion                  needed. PBS is taking action to address rent bill accuracy and consistency
                                       through its Rent Bill Management Program (RBMP). However, the RBMP
   annually for rent.                  will not necessarily address continuing dissatisfaction with customer service
                                       issues previously identified. We administered a March 2006 customer
                                       satisfaction survey, receiving over 250 responses, and found customer
                                       service issues with: a lack of detailed information on the customers’ rent bills
                                       regarding rate changes (43 percent dissatisfied); PBS not responding to
                                       customer calls or resolving questions in a timely manner (70 percent
                                       dissatisfied); and inaccurate GSA points of contact listed on the rent bill
                                       (43 percent dissatisfied). We performed audit field work, including a review
                                       of 50 client billing records and contacts with PBS employees and contractors
                                       to obtain additional detail on these problem areas.

                                       We recommended to the Commissioner that PBS:

                                       • Provide additional information on the rent bills regarding rate changes and
                                         miscellaneous billing adjustments.

                                       • Implement a methodology to ensure timely resolution of customer rent bill
                                         questions.

                                       • Implement management controls to ensure accurate rent bill points of
                                         contact.

                                       The Commissioner concurred with our recommendations.




12 Semiannual Report to the Congress
                       Management Challenges



                      Management Controls (continued)

                      GSA Fleet’s Loss Prevention Program
                      Under full service agreements for its vehicles, GSA Fleet (Fleet) provides its
                      customers with Voyager charge cards to purchase fuel, oil, and related
                      services. Fleet in turn pays these charges that, in FY 2006, amounted to
                      8.7 million purchases totaling approximately $405 million.

                      While the card is a convenience for its customers and simplifies payment
                      procedures for Fleet, the card also has the inherent vulnerabilities of credit
                      cards for misuse. GSA management requested this audit to help assess
                      whether its loss prevention procedures were working effectively, especially in
    Fleet’s loss      monitoring Voyager charge card transactions. Our audit objectives were to
prevention program    determine whether Fleet has established effective loss prevention
                      procedures, and whether the procedures assure all Voyager charges are
    needs to be       subject to review.
  strengthened to
effectively monitor   Fleet is in the process of establishing a national loss prevention program that
                      should enhance its ability to detect misuse and abuse and correct a number
charge card usage.    of the weaknesses we noted. We found that the decentralized program that
                      was operating at the time of our audit was applied unevenly, the detection
                      criteria the field locations used for identifying suspect charges varied, and
                      the criteria identified high numbers of valid transactions (or false positives)
                      along with improper ones, weakening the program’s effectiveness. We also
                      found that, while Fleet had established a database to record Voyager
                      charges and ensure they were subject to review, the process for ensuring
                      the database was complete needed strengthening.

                      We recommended to the Commissioner, Federal Acquisition Service that
                      GSA Fleet:

                      • Continue development of a centrally coordinated loss prevention program
                        that includes identification of, and focus on: the most critical loss and
                        abuse detection methods, cognizant field personnel in the resolution of
                        questionable transactions, and an effective method for tracking and
                        recording resolution activity.

                      • Strengthen its procedures for assuring all Voyager charges are subject to
                        review.

                      The Commissioner concurred with our recommendations.

                      Overtime Utilities/Engineering Billings at the Alfonse M. D’Amato
                      Courthouse
                      In response to a tenant agency’s request, we reviewed the overtime utility
                      and engineering billings at the Alfonse M. D’Amato Courthouse in Central
                      Islip, NY. Our focus was to determine whether GSA properly billed the two
                      tenant agencies for their respective overtime utility and engineering usage.

                                                                  October 1, 2006 – March 31, 2007 13
                                        Management Challenges



                                       Management Controls (continued)

                                       In general, when agencies in government-owned space work beyond their
                                       building’s normal work hours they reimburse GSA for the utility costs
                                       associated with the extra usage. Depending on the building, GSA’s property
                                       manager may also require that an engineer be present. Over the last
                                       several years, the two tenants, the U.S. Attorney’s Office and the District
                                       Court, have typically both kept Saturday hours.

                                       Our review found that GSA’s overtime utility and overtime engineering
                                       billings to these offices have been inaccurate resulting in both over and
                                       underbillings for FYs 2004 through 2006. Taken as a whole these represent
                                       net underbillings of approximately $118,185 for the U.S. Attorney’s Office
                                       and $13,309 for the District Court. The net overbillings for engineering
                                       usage ($4,844) resulted because the cost of the engineer was not properly
                                       allocated between the two agencies. The net underbillings for utility usage
                                       ($136,338) resulted from input errors in the automated tool used to estimate
                                       the usage and adjustments for the overlapping hours.

                                       We recommended that the region perform a full analysis of this area for the
                                       courthouse and reconcile any billing errors with the tenants. We also
                                       recommended that the issue of overlapping overtime hours be included in
                                       the training for the staff that prepare the estimates.

                                       The Regional Administrator agreed with the report recommendations.

                                       Human Capital
                                       Like many Federal agencies, GSA has an aging workforce and faces
                                       significant potential loss of institutional knowledge in the coming years.
                                       Since 1993, GSA has been downsizing and has focused on restructuring its
                                       financial and business efforts. Much of the downsizing was accomplished
                                       through early retirement and buyout authority, and by filling job vacancies
                                       sparingly.

                                       Congress and the Government Accountability Office (GAO) have identified
                                       human capital management policies as a missing link in the government’s
                                       performance management framework. GAO identified human capital
                                       planning and organizational alignment, leadership continuity and succession
                                       planning, and recruitment and retention of staff with the right skills as key
                                       areas needing attention.

                                       GSA’s Telework Program
                                       Telework provides GSA associates the opportunity to work from home or at a
                                       telecommuting center on an occasional or recurring basis. Telework
                                       programs have become increasingly widespread in the Federal Government
                                       since the Federal Flexible Workplace Pilot Project, co-directed by GSA and
                                       the Office of Personnel Management (OPM), identified a number of benefits


14 Semiannual Report to the Congress
                       Management Challenges



                      Human Capital (continued)

                      to teleworking, including improvement in employee productivity and
                      retention, reduced transportation costs and traffic congestion, and improved
                      air quality. In FY 2001, the Department of Transportation and Related
                      Agencies Appropriation Act included a provision that, “Each executive
Improvements are      agency shall establish a policy under which eligible employees of the agency
                      may participate in telecommuting to the maximum extent possible without
needed in training,   diminished employee performance.” In response to this Act, GSA
 monitoring, and      established a goal to be a leader in the development and overall use of
guidance to ensure    flexible workplace programs, including telework. We reviewed GSA’s
                      Telework Program to determine whether GSA had developed adequate
   proper use of      procedures for the implementation of the Telework Program, if those
   teleworking.       procedures are operating effectively, and whether there is proper
                      management and monitoring in place to oversee the program.

                      Our review of the Telework Program found issues with its implementation in
                      two of the three regions selected for testing, such as insufficient training to
                      ensure proper use of teleworking. Furthermore, the monitoring controls put
                      into place to track the number of associates participating in the Telework
                      Program are not sufficient to ensure the accuracy of externally reported
                      data. Finally, GSA’s telework guidance has not been updated in 10 years
                      and is inconsistent with the Federal telework guidelines published in the
                      Federal Register, including determination of the duty station for correct pay
                      computations.

                      We recommended that the Chief Human Capital Officer take the following
                      steps to help ensure GSA effectively implements, monitors, and manages
                      the Telework Program:

                      • Implement an Agency-wide training program, outlining telework
                        expectations, procedures, and policies for regional coordinators, telework
                        supervisors, and teleworkers to create a Telework Program that is
                        administered consistently throughout the organization.

                      • Implement monitoring controls by developing an Agency-wide tracking
                        system or database to identify associates who are participating in the
                        Telework Program.

                      • Review current telework guidance and update as necessary in
                        accordance with recent guidance issued by OPM.

                      • Review the official duty station of full-time teleworkers to ensure the
                        associates are receiving the correct locality pay.

                      The Chief Human Capital Officer agreed to and has started implementing the
                      four recommendations.



                                                                   October 1, 2006 – March 31, 2007 15
                              Promoting and Protecting Integrity



                                       GSA is responsible for providing working space for one million Federal
                                       employees. The Agency also manages the transfer and disposal of excess
                                       and surplus real and personal property and operates a governmentwide
                                       service and supply system. To meet the needs of customer agencies, GSA
                                       contracts for billions of dollars worth of equipment, supplies, materials, and
                                       services each year. We conduct reviews and investigations in all these
                                       areas to ensure the integrity of the Agency’s financial statements, programs,
                                       and operations, and that the taxpayers’ interests are protected. In addition
                                       to detecting problems in these GSA programs and operations, the OIG is
                                       responsible for initiating actions to prevent fraud, waste, and abuse and to
                                       promote economy and efficiency. When systemic issues are identified
                                       during investigations, they are shared with GSA management for appropriate
                                       corrective actions. During this period, criminal, civil, and other monetary
                                       recoveries totaled more than $103.2 million.

                                       Significant Civil Actions
                                       Oracle Pays $98.5 Million to Settle Defective Pricing Allegations
                                       In October, Oracle, Inc. agreed to pay $98.5 million to settle its potential civil
                                       False Claims Act liability arising from a qui tam complaint filed against
                                       PeopleSoft, Inc. Oracle purchased PeopleSoft, Inc. in 2005, and succeeded
                                       to PeopleSoft’s Multiple Award Schedule (MAS) contract for software and
   Oracle pays $98.5                   maintenance. The complaint, filed by an individual (the Relator) who was
                                       formerly a consultant and employee at PeopleSoft, alleged that PeopleSoft
   million in largest                  had engaged in defective pricing and had overcharged Federal agencies for
   GSA False Claims                    travel costs under its contract. The government’s investigation substantiated
     Act recovery.                     that PeopleSoft had grossly misrepresented its commercial pricing to GSA in
                                       three sets of negotiations under the MAS contract. The Relator who brought
                                       the action on behalf of the United States received a percentage of the
                                       settlement.

                                       GovConnection, Inc. Pays $2.55 Million Dollars for Overcharging
                                       Government Customers
                                       In December, GovConnection, Inc. (GovConnection), formerly ComTeq
                                       Federal, Inc., agreed to pay $2.55 million to settle its potential civil False
                                       Claims Act liability relating to its GSA MAS contract for the sale of
                                       information technology items to Federal agencies. The government had
                                       alleged that GovConnection overcharged Federal agencies that purchased
                                       under the MAS contract, and failed to pay GSA the full industrial funding fee
                                       due in connection with sales made under the contract.

                                       Audio/Visual Equipment Supplier Settles Civil Suit
                                       An investigation was initiated when a Hotline complaint alleged that Visual
                                       Innovations Company, Inc. (VICI) was selling used products as new to the
                                       government. VICI has a GSA MAS contract to provide audio/video
                                       equipment and related services to the government. The investigation




16 Semiannual Report to the Congress
                      Promoting and Protecting Integrity



                         revealed that VICI did not: provide all of the audio/video equipment billed to
                         the government, fulfill all aspects of the preventive maintenance agreements,
                         and pay all of its associated industrial funding fees. This investigation was
                         conducted in conjunction with the Defense Criminal Investigative Service
                         and required the cooperation of the Drug Enforcement Administration,
                         National Park Service, National Weather Service, Department of the Army,
                         and GSA Public Buildings Service, Federal Supply Service, Federal
                         Technology Service, and Office of the Chief Financial Officer.

                         On December 7, 2006, VICI signed a settlement agreement with the
                         U.S. Attorney’s Office, Western District of Texas, to pay and provide products
                         and services worth $30,267 to the United States.

                         Contractor That Charged for Services Never Provided Agrees to Pay
                         $25,000 to the Government
                         In November 2006, a principal of a company that contracted to provide
                         maintenance and repair services on government vehicles agreed to pay
                         $25,000 to settle his potential civil False Claims Act liability in connection
                         with contract overcharges. The government alleged that the company billed
                         GSA for repairs that were never actually performed. The government is
                         continuing to pursue other principals in this matter on a civil fraud basis.

                         Significant Criminal Actions
                         Technical Services Company Pleads Guilty to Making False Claims
                         A joint investigation with the U.S. Naval Criminal Investigative Service and
                         the Defense Contract Audit Agency was initiated when it was alleged that a
                         technical services company submitted false and fraudulent invoices to the
    GSA MAS              U.S. Navy for work done under various task orders issued under a GSA
contractor guilty of     MAS contract. The investigation revealed that the president, senior vice
                         president, and chief financial officer of the company were involved in a
      fraud.             scheme to inflate labor hours and labor charges on several task orders by
                         over billing, double billing, cross charging, and inflating expense reports. On
                         March 26, 2007, the president of the company pled guilty on behalf of his
                         company to making false claims and entered into a plea agreement to pay
                         restitution in the amount of $642,000 to the government.

                         Retired GSA Employee Pleads Guilty to Conspiracy
                         An investigation was initiated when it was alleged that a retired GSA
   Former GSA            contracting officer was performing contract work for the government and
contracting officer      subcontracting with businesses that provided work on government contracts.
                         The investigation revealed that, before her retirement, while acting on behalf
guilty of violating      of the government, she assisted a contractor with statements of work,
 the Procurement         solicitations, evaluations, and other matters associated with conducting
   Integrity Act.        procurements to award contracts for goods and services for Federal
                         agencies. Additionally, she provided procurement-sensitive information in




                                                                     October 1, 2006 – March 31, 2007 17
                              Promoting and Protecting Integrity



                                       which she was to receive 10 percent of the subcontract work that was
                                       awarded to the prime contractor.

                                       After retiring from GSA, the contracting officer became the president of
                                       Quality Management & Acquisition Consulting (QMAC), and provided
                                       contract services to GSA through QMAC. The investigation revealed that
                                       she knowingly conspired, and agreed with others, to defraud the United
                                       States, the GSA, and the Marine Corps. During the award of a blanket
                                       purchase agreement between GSA and QMAC, she deprived the
                                       government of exclusive use and control over contractor proposal and
                                       source selection information. She pled guilty to conspiracy to defraud the
                                       United States and to violating the Procurement Integrity Act. She was
                                       sentenced to 4 months incarceration, 2 years supervised probation, 50 hours
                                       of community service, and ordered to pay a monetary fine of $4,000.

                                       State Senator Indicted for Theft of Government Property
                                       On November 13, 2006, a criminal complaint was filed against a state
                                       senator and former mayor of Minnewaukan, North Dakota, for theft of
                                       government property and for fraudulently applying for vehicle title
                                       certificates. An investigation was initiated when it was alleged that the
     State senator                     senator obtained two pickup trucks from the North Dakota State Agency for
       charged in                      Surplus Property (Agency) by claiming that they were for the city’s use. The
                                       investigation disclosed that he instructed the treasurer to issue a city check
      government
                                       to the Agency so that the purchase of the first truck had the appearance of a
    surplus property                   legitimate city purchase, and converted the truck for his personal use by
        scheme.                        having it titled in his name. In obtaining title for the second truck, he
                                       provided false information to the state regarding the amount paid and origin
                                       of the truck. This ongoing investigation is being prosecuted by the State
                                       Attorney’s Office, County of Burleigh, North Dakota.

                                       GSA Employee Pleads Guilty to Theft of Government Property
                                       An investigation was initiated when it was reported that a GSA employee
                                       had improperly used his government purchase card. The investigation
                                       revealed that the employee purchased toner cartridges with his government
                                       purchase card. He returned the toner cartridges to the supplier, and
                                       received refunds by having the supplier credit his personal Visa card.
     GSA employee                      Records obtained from the supplier and the employee’s bank statements
                                       confirmed the receipt of four refunds totaling $3,140. The employee also
     guilty of theft.                  admitted selling toner cartridges over the Internet to the general manager of
                                       Applied Data Resources (ADR). He purchased toner cartridges from the
                                       supplier using his purchase card, stole toner cartridges from his office, and
                                       sold them to ADR. Records obtained from ADR indicated that the employee
                                       sold 70 toner cartridges valued at $14,397 to ADR.




18 Semiannual Report to the Congress
Promoting and Protecting Integrity



   The former GSA employee pled guilty to theft of public property and was
   sentenced to 5 years probation, and ordered to pay restitution in the amount
   of $17,799 and a fine in the amount of $1,500.

   Army National Guardsman Pleads Guilty to Theft of Property
   A joint investigation by the OIG and a local government revealed that a
   stolen GSA Fleet vehicle was being refueled using an assigned GSA Fleet
   charge card. The investigation determined that a member of the Army
   National Guard had stolen the vehicle for his personal use. He pled guilty to
   theft of property and was sentenced to 18 months incarceration, 2 years
   supervised probation, and ordered to pay a fine.

   Theft and Improper Storage of Fuel in South Florida
   The OIG participated in a joint task force with the Florida Department of
   Transportation, Office of Motor Carrier Compliance, the Broward County
   Sheriff’s Office, the Domestic Security Task Force, and the Miami Tech
   Group. The task force was created to counter illegal and dangerous
   schemes involving the theft and unauthorized storage of hazardous fuel, sale
   of stolen fuel, and theft of government credit cards.

   The investigation determined that a fuel transport company, who had access
   to Port Everglades, was diverting fuel to a shipping container located on
   private property between Port Everglades and Fort Lauderdale-Hollywood
   International Airport. The stolen fuel was used to fill up company trucks,
   commercial vehicles, and personally-owned vehicles of friends and relatives
   of the company. The investigation led to the arrest of seven individuals who
   were charged with conspiring to steal and convert interstate shipments of
   fuel by embezzling goods, and aiding and abetting.

   Electronic Crimes Task Force
   An investigation was initiated based on a proactive project developed
   through the Electronic Crimes Task Force, U.S. Secret Service, Baltimore
   Field Office, Baltimore, MD. Merchandise valued at $329,000 was
   purchased with fictitious documents, unlawful access to checking accounts,
   and government/corporate credit cards, and then was returned for cash. On
   December 14, 2006, the task force arrested eight individuals for committing
   theft and fraud through the use and manipulation of electronic media. These
   arrests stemmed from an ongoing criminal investigation for electronic crime
   violations through the unlawful use of fictitious electronic certifications,
   documents, and corporate credit card accounts impacting the GSA Smart
   Card Program.




                                              October 1, 2006 – March 31, 2007 19
                              Promoting and Protecting Integrity



                                       Representative of Nonprofit Organization Pleads Guilty to Theft of
                                       Government Property
                                       An investigation was initiated when the Texas Building and Procurement
                                       Commission alleged that government surplus property was being stolen by a
                                       representative of Haltom City Food Bank. The investigation disclosed that
                                       the individual, after obtaining the donated items, sold them on eBay and kept
                                       proceeds totaling $7,749. He pled guilty to theft of government property, and
                                       was sentenced to 2 years community supervised deferred adjudication,
                                       80 hours of community service, and ordered to pay a $1,000 fine and
                                       $5,519 restitution.

                                       Works Progress Administration Artwork Recovered
                                       GSA is the custodian of the Works Progress Administration (WPA) works of
                                       art. The WPA fine arts specialists have coordinated with the Department of
                                       Justice and the FBI to develop a list of lost and stolen WPA artwork. Fine
                                       arts dealers are required to check this database prior to the sale of any work
                                       of art.

                                       The OIG continues its proactive investigation by monitoring art sales to
                                       identify government-owned art. Through a search of eBay auctions for art
                                       commissioned by the WPA, two works of art were recovered during this
                                       reporting period.

                                       In the first instance, an H.L. Pierre painting titled Kansas City Waterfront,
                                       which is the property of GSA and part of the WPA project, was recovered.
                                       The seller was apprised of the WPA recovery efforts, agreed to terminate the
                                       sales auction, and maintained possession of the painting until it was
       WPA artwork                     returned to the control of the government. The value of the painting is
                                       estimated at $2,000. After final cataloging and appraisal, the painting was
        recovered.                     sent to the Office of the Chief Architect, PBS, to determine a suitable
                                       location for display in the Kansas City area.

                                       In the second instance, a WPA figurine by artist Nils Hanson was recovered
                                       and returned to the control of the government. The figurine is valued at
                                       approximately $500. It was sent to the Office of the Chief Architect, PBS, for
                                       cataloging and determination of a suitable location for display.

                                       Telecommunications Fraud
                                       The OIG continues to be a principal participant in the New York Electronic
                                       Crimes Task Force (NYECTF) that has been investigating
                                       telecommunications fraud primarily involving Federal facilities within the New
                                       York City metropolitan area. GSA is the principal provider of
                                       telecommunications services for these facilities. NYECTF members include
                                       the United States Secret Service, Department of Defense, Department of
                                       Justice, New York City Police Department, and telecommunications industry
                                       representatives.



20 Semiannual Report to the Congress
Promoting and Protecting Integrity



   In one instance, J.P. Morgan Chase Manhattan Bank (Chase) revealed to
   the NYECTF that several individuals were making unauthorized wire
   transfers out of accounts maintained for several United Nations (UN)
   Missions into various other bank accounts located throughout New York City.
   The investigation disclosed that these individuals would send a facsimile
   transmission to Chase requesting a wire transfer that purported to originate
   from bank accounts maintained for several UN Missions. The document
   requested Chase to wire transfer the amount to an account as stated in the
   letterhead. Chase executed these requests and the scheme has resulted in
   a loss of approximately $240,000. As a result of this investigation, four
   individuals have been arrested and subsequently indicted on charges of
   conspiracy to commit bank fraud.

   In a second instance, an individual hacked into the bank account of Penton
   Learning Systems LLC, New York City, and illegally wire transferred over
   $81,000 into his personal bank account. He has been remanded to the
   custody of the New York State Department of Correction. Previously, this
   individual hacked into the bank account of New York Presbyterian Hospital,
   and illegally wire transferred approximately $16,000 into his personal bank
   account. He was arrested and then pled guilty to a misdemeanor for bank
   robbery and incidental crimes. He was awaiting sentencing when he was
   arrested for the current charge of grand larceny and identity theft.

   In a third instance, the NYECTF had uncovered a scheme in which nine
   individuals placed telephone calls to Money Gram call centers and falsely
   represented themselves as authorized Money Gram agents. They tricked
   the operator into transferring funds to various cashing centers in the New
   York City area where individuals then picked up the transferred funds. The
   investigation disclosed that the last individual to plead guilty in this case
   used a check cashing service in Manhattan with an illegal state identification
   card to obtain $2,600 in cash through a Money Gram. Four of the remaining
   eight individuals previously pled guilty and have been sentenced. The other
   four individuals have been sentenced to pre-trial diversion programs. This
   NYECTF case involved fraud through the use of the FTS telephone system.

   Fleet Charge Card Abuse
   The OIG has an ongoing proactive investigative project, funded in part by
   GSA’s Federal Acquisition Service, to identify and investigate fraud
   associated with the misuse of GSA-issued Fleet charge cards. During this
   period, 13 individuals pled guilty in connection with cases arising out of Fleet
   charge card investigations.

   • An undercover operation at a gas station in Washington, DC revealed that
     the owner of the station was processing GSA Fleet charge cards twice
     through the credit card machine. Confronted with the evidence, the owner
     entered into a plea agreement with the U.S. Attorney’s Office whereby he
     pled guilty to wire fraud. On November 21, 2006, he was sentenced to



                                                October 1, 2006 – March 31, 2007 21
                              Promoting and Protecting Integrity



                                         6 months confinement, 30 months of supervised release, 240 hours of
                                         community service, and ordered to pay $120,000 in restitution.

                                       • An investigation was initiated when it was reported that possible
                                         unauthorized purchases of gas were being made with Fleet charge cards
                                         in the Fort Hood, Texas area. With assistance from the Killeen Police
                                         Department and the Army Criminal Investigative Division, agents
                                         conducted extensive video surveillance that captured an individual fueling
                                         multiple vehicles using several Fleet charge cards. He pled guilty to theft
                                         of government property, and was sentenced to 14 months confinement,
                                         36 months probation, and ordered to pay restitution in the amount of
                                         $40,210.

                                       • A civilian contract employee of the U.S. Army stole a Fleet charge card
                                         from the Army Transportation unit. He used the card to purchase fuel for
                                         his own vehicle and to sell fuel to other unidentified individuals. He pled
                                         guilty to theft and fraud and was sentenced to 12 years confinement with
                                         10 years suspended and 10 years active probation, and ordered to pay
                                         restitution.

                                       • An investigation determined that a reservist with the Georgia Army
                                         National Guard stole a Fleet charge card and used the charge card to
                                         purchase fuel for his vehicle and the vehicles of several acquaintances.
                                         On December 11, 2006, he pled guilty to financial transaction theft and
   Charge card fraud                     financial transaction card fraud and was sentenced to 3 years active
    leads to multiple                    probation, and ordered to pay a fine and restitution.

        arrests.                       • A joint investigation by the OIG and the AMTRAK Police Department
                                         determined that an AMTRAK employee was making unauthorized fuel
                                         charges using a Fleet charge card. The investigation determined that he
                                         used two stolen Fleet charge cards to purchase fuel. He pled guilty to
                                         theft and was sentenced to 3 years supervised probation, and ordered to
                                         pay restitution in the amount of $7,615.

                                       • Fleet Fraud Detection Unit reported that a Fleet charge card was being
                                         used to make multiple fuel purchases on the same day. An investigation
                                         determined the individual was using the card to fuel his vehicle and his
                                         friends and families vehicles. On November 16, 2006, he pled guilty to
                                         theft of government property and was sentenced to 3 years supervised
                                         probation, and ordered to pay restitution.

                                       • A former National Guard recruiter used his government assigned Fleet
                                         charge card to purchase fuel for his personal vehicles. He pled guilty to
                                         theft of government property and was sentenced to 2 years of supervised
                                         probation, and ordered to pay restitution. In addition, the Missouri
                                         National Guard discharged him with no chance of reinstatement.




22 Semiannual Report to the Congress
Promoting and Protecting Integrity



   • A joint investigation with the U.S. Postal Service (USPS), Office of
     Inspector General, revealed that a GSA leased vehicle assigned to the
     USPS showed multiple same-day fuel purchases minutes apart from each
     other at various gas stations in New York. The USPS employee admitted
     to fraudulently using a Fleet charge card to refuel his personal vehicle.
     On February 6, 2007, he pled guilty to larceny and was sentenced to
     1 year conditional discharge, and ordered to pay restitution.

   • An investigation revealed that an employee of the Bureau of Engraving
     and Printing used a Fleet charge card to fuel a privately-owned vehicle
     and lent the card to an acquaintance to use. The employee pled guilty to
     theft of government property and was sentenced to 1 year supervised
     probation, and ordered to complete community service and pay restitution.
     His acquaintance also pled guilty to theft of government property, and was
     sentenced to 1 year supervised probation, ordered to pay restitution, and
     was fined $500.

   • An investigation was initiated when a GSA vehicle leased to the Rosebud
     Sioux Tribe’s Community Health Representative Program was identified
     as incurring Fleet charge card charges without any reported mileage. An
     inquiry with the customer agency revealed that the GSA vehicle had been
     wrecked and was inoperable. The investigation revealed that the
     assigned driver used the card to purchase gas, food, and beer for his
     personal use both before and after the accident. He pled guilty and was
     sentenced to 18 months confinement in the South Dakota State Prison
     System. The execution of that sentence was suspended subject to his
     successful completion of 3 years probation, the payment of a fine and
     restitution, and his performance of 100 hours of community service.

   • An investigation was initiated when the Fleet Fraud Detection Unit
     reported that multiple same day fuel purchases within a short period of
     time were being made on a vehicle assigned to the Department of the
     Navy. An electronic surveillance conducted jointly with the Illinois State
     Police confirmed that an individual was unlawfully using a Fleet charge
     card to fill vehicles of several customers at a gas station. He pled guilty to
     identity theft, wire fraud, and prohibited uses of a charge card. He was
     sentenced to 5 years confinement.

   Suspension and Debarment Initiative
   GSA has a responsibility to ascertain whether the people or companies they
   do business with are eligible to participate in federally-assisted programs
   and procurements, and that they are not considered “excluded parties.”
   Excluded parties are individuals and companies debarred, suspended,
   proposed for debarment, or declared ineligible to receive contracts by a
   Federal agency. The Federal Acquisition Regulation authorizes an agency
   to suspend or debar individuals or companies for the commission of any




                                               October 1, 2006 – March 31, 2007 23
                              Promoting and Protecting Integrity



                                       offense indicating a lack of business integrity or business honesty that
                                       directly affects the present responsibility of a government contractor or
                                       subcontractor. The OIG has made it a priority to process and forward
                                       referrals to GSA, so GSA can timely ensure that the government does not
                                       award contracts to individuals or companies that lack business integrity or
                                       honesty.

                                       During this reporting period, the OIG made 80 referrals for consideration of
                                       suspension/debarment to the GSA Office of Acquisition Policy. GSA issued
                                       108 suspension and debarment actions based on current and previous OIG
                                       referrals.

                                       Integrity Awareness
                                       The OIG presents Integrity Awareness Briefings nationwide to educate GSA
                                       employees on their responsibilities for the prevention of fraud and abuse and
                                       to reinforce employees’ roles in helping to ensure the integrity of Agency
                                       operations.

                                       This period, we presented 22 briefings attended by 250 regional and Central
                                       Office employees. These briefings explain the statutory mission of the OIG
                                       and the methods available for reporting suspected instances of wrongdoing.
                                       In addition, through case studies, the briefings make GSA employees aware
                                       of actual instances of fraud in GSA and other Federal agencies and thus
                                       help to prevent their recurrence. GSA employees are the first line of
                                       defense against fraud, abuse, and mismanagement. They are a valuable
                                       source of successful investigative information.

                                       Hotline
                                       The OIG Hotline provides an avenue for employees and other concerned
                                       citizens to report suspected wrongdoing. Hotline posters located in
                                       GSA-controlled buildings encourage employees to use the Hotline. We also
                                       use our FraudNet Hotline platform to allow Internet reporting of suspected
                                       wrongdoing. During this reporting period, we received 1,235 Hotline
                                       contacts. Of these contacts, 165 Hotline cases were initiated. In 70 of these
                                       cases, referrals were made to GSA program officials for review and action as
                                       appropriate, 42 cases were referred to other Federal agencies for follow up,
                                       36 were referred for OIG criminal/civil investigations or audits, and 17 did not
                                       warrant further review.

                                       Federal Managers’ Financial Integrity Act Review
                                       The Federal Managers’ Financial Integrity Act (FMFIA), Section 2, requires
                                       GSA management to provide assurance to the President and the Congress
                                       that Agency resources are protected from fraud, waste, mismanagement,




24 Semiannual Report to the Congress
Promoting and Protecting Integrity



   and misappropriation. FMFIA, Section 4 relates to the CFO’s disclosure of
   nonconformances with Federal financial management system policies and
   standards.

   GSA’s Management Control and Oversight Council uses assurance
   statement questionnaires submitted by Regional Administrators and Heads
   of Services and Staff Offices as a basis for developing the Administrator’s
   assurance statement.

   Each year, we review the Agency’s FMFIA process to determine whether
   management adequately disclosed all known control weaknesses and
   nonconformances in the Agency’s programs, operations, and systems of
   management’s reporting of known significant weaknesses and deficiencies.
   In reviewing the FMFIA assurance statement questionnaires submitted by
   management for FY 2006, we noted weaknesses reported for compliance
   with Federal financial system requirements, human capital management, and
   internal control issues at the Ft. Worth Office of Finance. In addition, our
   review of audits performed by the OIG and other external organizations
   identified issues relating to the implementation of the Federal Information
   Security Management Act and the required background investigations not
   completed for contractors.

   Financial Statement Audit and Related Reviews
   With the passage of the Chief Financial Officer’s Act of 1990, Congress and
   the Office of Management and Budget (OMB) have established a framework
   for financial audits and reviews designed to enhance the Federal
   Government’s financial management and reporting practices. Summarized
   below are the results of our financial and financial-related reviews.

   As in past years, GSA’s Financial Statement Audit was performed by an
   independent public accounting firm, with oversight, support work, and
   guidance provided by the OIG. The firm issued an unqualified opinion on the
   balance sheets of GSA, the General Supply Fund (GSF), and the
   Information Technology Fund (ITF) as of September 30, 2006 and 2005, and
   the related consolidated and individual statements of net cost, and of
   changes in net position for the years then ended, and the statement of
   budgetary resources and the statement of financing for the year ending
   September 30, 2006. The firm was unable to express an opinion on the
   combined and individual statements of budgetary resources, and the
   consolidated and individual statements of financing of GSA, the GSF, and
   the ITF for the year ended September 30, 2005. The firm also issued an
   unqualified opinion on GSA’s FYs 2006 and 2005 balance sheets and the
   related statements of net cost, of changes in net position and of financing,
   and the statements of budgetary resources for the Federal Buildings Fund
   (FBF).

   GSA, GSF, ITF, and FBF had no material weaknesses in internal controls
   over financial reporting or instances of noncompliance with applicable laws

                                              October 1, 2006 – March 31, 2007 25
                              Promoting and Protecting Integrity



                                       and regulations. The firm did, however, identify the following reportable
                                       conditions concerning the Agency’s need to:

                                       • Improve controls over monitoring, accounting, and reporting of budgetary
                                         transactions.

                                       • Strengthen system access, separation of duties, and monitoring controls.

                                       • Continue to improve controls over accounting, reporting, and monitoring of
                                         construction in process projects.

                                       Testing Controls Over Performance Measures
                                       The OIG conducted the portion of GSA’s Fiscal Year 2006 Financial
                                       Statement Audit related to internal controls over performance measures.
                                       Our report noted that the internal controls designed by the Office of the Chief
                                       Financial Officer (OCFO) over GSA’s performance measures data are
                                       operating effectively. Specifically, we found that, in accordance with GSA
                                       policy, the OCFO performed and documented the required review of Agency
                                       performance measure data, and that the conclusions therein were
                                       adequately supported.

                                       Agreed-Upon Procedures Reviews
                                       In support of GSA’s Financial Statement Audit, we performed agreed-upon
                                       procedures reviews over GSA’s FY 2006 environmental liabilities and legal
                                       loss contingencies.

                                       We reconciled the Office of General Counsel’s environmental liability letter
                                       and supporting spreadsheets to PBS’ summary schedules based on
                                       documents prepared by regional offices. In our review of legal loss
                                       contingencies, we tested 100 percent of claims for $10 million or more to
                                       determine the Agency’s planned response to the litigation and, if a possible
                                       loss was perceived, whether Office of General Counsel personnel could
                                       provide explanations of the estimates.

                                       We provided the relevant information on the procedures we performed to the
                                       independent public accounting firm on November 7, 2006.




26 Semiannual Report to the Congress
                 Governmentwide Policy Activities



                  We regularly provide advice and assistance on governmentwide policy
                  matters to the Agency, as well as to other Federal agencies and to
                  committees of Congress. In addition, as required by the Inspector General
                  Act of 1978, we review existing and proposed legislation and regulations to
                  determine their effect on the economy and efficiency of the Agency’s
                  programs and operations and on the prevention and detection of fraud and
                  mismanagement. Because of the central management role of the Agency in
                  shaping governmentwide policies and programs, most of the legislation and
                  regulations reviewed invariably affect governmentwide issues in areas such
                  as procurement, property management, travel, and government
                  management and information technology systems.

Interagency       This period, we provided advice and assistance to the Office of Management
                  and Budget (OMB) on various procurement policy issues. In addition, we
Committees and    participated on a number of interagency committees and working groups that
Working Groups    deal with cross-cutting and governmentwide issues:

                  • The Inspector General (IG) is the vice-chair of the National Procurement
                    Fraud Task Force established by the Department of Justice (DOJ). In
                    addition to DOJ, OIGs and other Federal law enforcement agencies are
                    full participants. The purpose of the task force is to promote the early
                    detection, prevention, and prosecution of procurement fraud associated
                    with increased contracting activity for national security and other
                    government programs. The task force will focus resources to increase
                    criminal enforcement in areas of procurement fraud having the most
                    substantial impact, such as defective pricing or other irregularities in
                    pricing and formation of contracts, product substitution, false claims, labor
                    mischarging, and accounting fraud. The task force’s priority efforts
                    include: identification and prosecution of procurement fraud cases
                    through coordination with U.S. Attorneys’ Offices and OIG offices; better
                    coordination between agency auditors and investigators to ensure that
                    indicators of fraud are promptly reported to criminal investigators;
                    improved identification and resolution of investigative and coordination
                    issues; and, specialized training for OIG agents and auditors on the
                    development and prosecution of procurement fraud cases.

                  • The IG is a participating member of the President’s Council on Integrity
                    and Efficiency/Executive Council on Integrity and Efficiency (PCIE/ECIE)
                    Homeland Security Roundtable, headed by the IG of the Department of
                    Homeland Security. The Homeland Security focus of the Roundtable was
                    a springboard for a review of the Federal Government’s response to
                    Hurricanes Katrina and Rita. The Roundtable meets quarterly to help
                    coordinate efforts of the IG community, to ensure accountability of the
                    Federal money being spent in those response efforts, and to deter waste,
                    fraud, and abuse. Further, the Assistant Inspector General for Auditing
                    (AIGA) participates in the Disaster Recovery Working Group in response
                    to the Hurricane Katrina disaster, under the same Roundtable.



                                                                 October 1, 2006 – March 31, 2007 27
                               Governmentwide Policy Activities



                                       • The AIGA co-chairs the IT Committee under the PCIE Federal Audit
                                         Executive Council. This Committee is responsible for leading discussion
                                         and reaching consensus among all of the OIGs regarding a myriad of IT
                                         issues, including proposed legislation and regulations, OMB questions
                                         and reporting requirements, and IT audit approaches and best practices.
                                         Further, audit representatives participate in this Committee to develop
                                         approaches and techniques for conducting IT security audits under the
                                         Federal Information Security Management Act (FISMA). Additionally, audit
                                         representatives participate in the PCIE IT Roundtable, a group that
                                         facilitates effective IT audits, evaluations, and investigations by OIGs and
                                         provides an OIG perspective on governmentwide IT operations.

                                       • Our TeamMate Technical Support Group participates in the TeamMate
                                         Federal Users Group and the PricewaterhouseCoopers TeamMate Users
                                         Group to discuss concerns or new challenges facing TeamMate users.
                                         TeamMate is an automated audit paperwork management system that
                                         should make the audit process more efficient.

Legislation and                        During this reporting period, the OIG reviewed 148 legislative matters and
                                       14 proposed regulations.
Regulations




28 Semiannual Report to the Congress
Professional Assistance Services



   Government Auditing Standards prohibit Federal audit organizations from
   performing certain types of management consulting projects because they
   may impair the independence of the auditors when performing subsequent
   audit work in the same area. To maintain our independence when working
   closely with GSA management, we carefully assess our services to ensure
   compliance with the standards. As allowed under the standards, we are
   continuing our participation on Agency improvement task forces, committees,
   and working groups in an observer or advisory capacity.

   Task Forces, Committees, and Working Groups. The OIG provides
   advice and counsel to GSA while monitoring ongoing Agency initiatives. Our
   representatives advise management at the earliest possible opportunity of
   potential problems, help ensure that appropriate management controls are
   provided when installing new or modifying existing Agency systems, and
   offer possible solutions when addressing complex financial and operational
   issues.

   Our direct participation with the Agency on task forces, committees, and
   working groups allows us to contribute our expertise and advice, while
   improving our own familiarity with the Agency’s rapidly changing systems.
   We nevertheless maintain our ability to independently audit and review
   programs. Our participation on task forces is typically as a nonvoting
   advisory member. We maintain a strict policy of excluding staff members
   who have served on developmental task forces from subsequent audits of
   the same subject areas.

   Some areas in which we have been involved this period include:

   • Multiple Award Schedule Working Group. The Multiple Award
     Schedule (MAS) Working Group was established as a result of an OIG
     report released in August 2001 relating to MAS contracting pricing
     practices. The Working Group is primarily comprised of members of the
     Federal Acquisition Service (FAS) and the OIG, with representation also
     from the Office of the Chief Acquisition Officer. The Working Group has
     served as an effective institutionalized communications channel for both
     broad policy issues and discrete issues having to do with particular
     contracts or reviews.

     The Working Group has had several areas of focus, including preaward
     contract reviews and MAS negotiations issues. The Working Group has
     developed guidance to MAS contracting officers (COs) regarding the
     performance and use of preaward MAS contract reviews. Further, the
     Working Group has reinvigorated the process by which FAS and the OIG
     collaboratively select and commence preaward reviews of vendors, and
     has built into this process specific mechanisms for COs to request
     reviews of particular vendors. The Working Group has focused on issuing
     guidance to COs regarding negotiation objectives and discrete negotiation
     issues for MAS contract awards. The Working Group also provided input


                                             October 1, 2006 – March 31, 2007 29
                               Professional Assistance Services



                                         to FAS in its efforts to upgrade or enhance pricing performance measures
                                         on MAS contracts.

                                       • GSA IT Governance Groups. Audit representatives participate as
                                         nonvoting members on three of GSA’s major IT governance teams and
                                         attend all meetings. The Information Technology Architecture Planning
                                         Committee defines the standards for GSA’s information technology in
                                         support of business goals and at the direction of the Information
                                         Technology Council (ITC). The ITC is comprised of senior IT staff
                                         members from the Office of the Chief Information Officer and GSA
                                         services, staff offices, and regions to collaboratively explore and
                                         determine actions needed to ensure that IT decisions have a sound
                                         business and IT investment basis. Senior audit representatives also
                                         participate in meetings of the Business Systems Council, a senior
                                         management forum chaired by the Deputy Administrator, which make
                                         decisions regarding major IT investments in conjunction with GSA’s
                                         Performance Management process, the Human Capital Planning process,
                                         the IT Capital Planning and Investment process, and ongoing business
                                         process changes for the Agency.

                                       • Single Audit Act Activities. The Single Audit Act established uniform
                                         audit requirements for state and local governments receiving Federal
                                         awards. The non-Federal entities that receive Federal awards under
                                         more than one Federal program are required to undergo a single audit to
                                         prevent duplicate audits and inefficiencies. Each Federal agency monitors
                                         the non-Federal entity’s use of awards provided by the Agency, and
                                         assesses the quality of the audits conducted relative to its program. The
                                         OIG monitors these activities primarily as they relate to the personal
                                         property disposal program.




30 Semiannual Report to the Congress
               Statistical Summary of OIG Accomplishments



                             Audit Reports Issued
                             The OIG issued 73 audit reports during this reporting period. The 73 reports
                             contained financial recommendations totaling $256,200,173 including,
                             $249,827,444 in recommendations that funds be put to better use and
                             $6,372,729 in questioned costs. Due to GSA’s mission of negotiating
                             contracts for governmentwide supplies and services, most of the savings
                             from recommendations that funds be put to better use would be applicable
                             to other Federal agencies.

                             Management Decisions on Audit Reports
                             Table 1 summarizes the status of the universe of audits requiring
                             management decisions during this period, as well as the status of those
                             audits as of March 31, 2007. There was one report more than 6 months old
                             awaiting management decision as of March 31, 2007. Table 1 does not
                             include three reports issued to other agencies this period. Table 1 also does
                             not include five reports excluded from the management decision process
                             because they pertain to ongoing investigations.


                 Table 1. Management Decisions on OIG Audits


                                                                  Reports with        Total
                                                  No. of            Financial       Financial
                                                 Reports        Recommendations Recommendations

For which no management decision
had been made as of 10/1/06
  Less than six months old                          25                  19             $ 216,717,741
  Six or more months old                             0                   0                         0
Reports issued this period                          70                  41               256,200,173
TOTAL                                               95                  60             $ 472,917,914
For which a management decision
was made during the reporting period
  Issued prior periods                              24                  19             $ 216,717,741
  Issued current period                             36                  17               113,502,471
TOTAL                                               60                  36             $ 330,220,212
For which no management decision
had been made as of 3/31/07
  Less than six months old                          34                  24             $ 142,697,702
  Six or more months old                             1                   0                         0
TOTAL                                               35                  24             $ 142,697,702




                                                                        October 1, 2006 – March 31, 2007 31
                      Statistical Summary of OIG Accomplishments



                                       Management Decisions on Audit Reports with
                                       Financial Recommendations
                                       Tables 2 and 3 present the audits identified in Table 1 as containing financial
                                       recommendations by category (funds to be put to better use or questioned
                                       costs).




                   Table 2. Management Decisions on OIG Audits with
                   Recommendations that Funds be Put to Better Use

                                                                  No. of                       Financial
                                                                 Reports                   Recommendations

       For which no management decision had
       been made as of 10/1/06
         Less than six months old                                   19                     $ 216,717,741
         Six or more months old                                      0                                 0
       Reports issued this period                                   36                       249,827,444
       TOTAL                                                        55                     $ 466,545,185

       For which a management decision was
       made during the reporting period
       TOTAL                                                        33                     $324,645,309*

       For which no management decision had
       been made as of 3/31/07
         Less than six months old                                    22                    $ 141,899,876
         Six or more months old                                       0                                0
       TOTAL                                                         22                    $ 141,899,876

          *Management did not agree with $2,452,255 in recommendations.




32 Semiannual Report to the Congress
          Statistical Summary of OIG Accomplishments




             Table 3. Management Decisions on OIG Audits
                        with Questioned Costs

                                        No. of               Questioned
                                       Reports                 Costs

For which no management decision
had been made as of 10/1/06
  Less than six months old                 0                $        0
  Six or more months old                   0                         0
Reports issued this period                 5                 6,372,729
TOTAL                                      5                $6,372,729

For which a management decision
was made during the reporting period
TOTAL                                      3                $5,574,903

For which no management decision
had been made as of 3/31/07
  Less than six months old                 2                $ 797,826
  Six or more months old                   0                        0
TOTAL                                      2                $ 797,826




                                                 October 1, 2006 – March 31, 2007 33
                      Statistical Summary of OIG Accomplishments



                                       Investigative Workload
                                       The OIG opened 159 investigative cases and closed 156 cases during this
                                       period. In addition, the OIG received and evaluated 30 complaints and
                                       allegations from sources other than the Hotline that involved GSA
                                       employees and programs. Based upon our analyses of these complaints
                                       and allegations, OIG investigations were not warranted.

                                       Referrals
                                       The OIG makes criminal referrals to the Department of Justice or other
                                       authorities for prosecutive consideration and civil referrals to the Civil
                                       Division of the Department of Justice or U.S. Attorneys for litigative
                                       consideration. The OIG also makes administrative referrals to GSA officials
                                       on certain cases disclosing wrongdoing on the part of GSA employees,
                                       contractors, or private individuals doing business with the government.



                                Table 4. Summary of OIG Referrals

           Type of Referral                              Cases                               Subjects
           Criminal                                        70                                   185
           Civil                                           34                                    53
           Administrative                                  76                                   162
           TOTAL                                          180                                   400


                                       In addition, the OIG made 32 referrals to GSA officials for information
                                       purposes only.

                                       Actions on OIG Referrals
                                       Based on these and prior referrals, 45 cases (115 subjects) were accepted
                                       for criminal prosecution and 22 cases (35 subjects) were accepted for civil
                                       litigation. Criminal cases originating from OIG referrals resulted in
                                       57 indictments/informations and 32 successful prosecutions. OIG civil
                                       referrals resulted in 5 case settlements. Based on OIG administrative
                                       referrals, management debarred 69 contractors/individuals, suspended
                                       39 contractors/individuals, and took 13 personnel actions against
                                       employees.




34 Semiannual Report to the Congress
         Statistical Summary of OIG Accomplishments



                       Monetary Results
                       Table 5 presents the amounts of fines, penalties, settlements, judgments,
                       and restitutions payable to the U.S. Government as a result of criminal and
                       civil actions arising from OIG referrals.


                     Table 5. Criminal and Civil Recoveries
                                                 Criminal                       Civil

     Fines and Penalties                        $   13,405              $           —

     Settlements                                         —               101,160,268

     Restitutions                                1,963,114                          —

     TOTAL                                      $1,976,519              $101,160,268

                       Table 6 presents the amount of administrative recoveries, cost avoidance,
                       and management commitment as a result of investigative activities.



                    Table 6. Other Monetary Results
Administrative Recoveries                    $69,970

Cost Avoidance                                14,037

Management Commitment                           1,958

TOTAL                                        $85,965




                                                                  October 1, 2006 – March 31, 2007 35
APPENDICES
                    Appendix I–Significant Audits from Prior Reports




Under the Agency audit management decision process,           The remaining recommendations involve implementing
the GSA Office of the Chief Financial Officer, Office of      improved accountability for employees and contractors,
the Controller, is responsible for tracking the               strengthening policy and procedures, and developing
implementation of audit recommendations after a               and implementing guides for securing Web applications
management decision has been reached. That office             and Voice Over Internet Protocol. They are scheduled
furnished the following status information.                   for completion between June 15, 2007 and August 15,
                                                              2007.
Twelve audits highlighted in prior reports to the
Congress have not yet been fully implemented; all are         PBS Environment Program
being implemented in accordance with currently
established milestones.
                                                              Management
                                                              Period First Reported: October 1, 2005, to March 31, 2006

Overtime Management                                           The review found that the scope of the Environment
Period First Reported: April 1, 2006, to September 30, 2006
                                                              Management Program needs to be expanded, and the
                                                              database needs several application controls. The
The review focused on the management control
                                                              report contained ten recommendations; seven have
environment for building operations that frequently
                                                              been implemented.
incur overtime costs. The report contained three
recommendations; two have been implemented.
                                                              One remaining recommendation involves improving the
                                                              Environmental Risk Index by expanding its scope to
The remaining recommendation involves redesigning
                                                              include leased facilities with terms that exceed
GSA Form 544 as a standard mandatory electronic
                                                              an appropriate number of years. Another
version with e-signature capabilities. It is scheduled for
                                                              recommendation         involves       ensuring      that
completion on May 15, 2007.
                                                              PBS management supervises the environmental
                                                              liability report. The third recommendation involves
GSA’s University for People                                   applying a risk-based approach to identify tenants
Period First Reported: April 1, 2006, to September 30, 2006
                                                              whose activities pose a greater risk to the environment
                                                              and execute a written agreement with them. They are
The review focused on GSA’s University for People’s
                                                              scheduled for completion on June 15, 2007.
procurement practice and contract administration. The
report contained four recommendations; three have
been implemented.
                                                              Using Facility Management
                                                              Schedules
The remaining recommendation involves obtaining               Period First Reported: October 1, 2005, to March 31, 2006
appropriate procurement support and instituting
controls necessary to administer the resulting                This review found that PBS was not using the
contracts. It is scheduled for completion on June 15,         FSS Facilities Maintenance and Management
2007.                                                         schedules extensively. The report contained four
                                                              recommendations; two have been implemented.
GSA’s IT Security Program
Period First Reported: April 1, 2006, to September 30, 2006   The remaining recommendations require fostering
                                                              awareness and compliance with guidelines, and
The review focused on reviewing GSA’s IT                      assessing how the MAS schedule can best serve
Security Program.    The report contained four                PBS’s need for facility maintenance contracting. They
recommendations; one has been implemented.                    are scheduled for completion on May 15, 2007.




                                                                                   October 1, 2006 – March 31, 2007 39
                     Appendix I–Significant Audits from Prior Reports




CONNECTIONS Program Contract                                  GSA Advantage!
Period First Reported: October 1, 2005, to March 31, 2006     Period First Reported: April 1, 2005, to September 30, 2005

This review found that several problems exist in the use      The review centered on specific shortfalls with GSA
of the CONNECTIONS contract at the regional level.            Advantage’s management funding and planning
The report contained three recommendations; two               process. The report contained four recommendations;
have been implemented.                                        two have been implemented.

The remaining recommendation, which requires                  The remaining recommendations involve establishing a
establishing a percentage limit for other direct costs to     management structure with adequate authority and
be used by all the regions, is scheduled for completion       responsibility, and analyzing virtual stores to ensure the
on April 15, 2007.                                            benefits of these investments exceed their
                                                              development and maintenance costs. They are
Federal Procurement Data                                      scheduled for completion on June 15, 2007.
System–Next Generation
Period First Reported: October 1, 2005, to March 31, 2006
                                                              Comprehensive Human Resources
                                                              Integrated System
The review disclosed that certain contract and system         Period First Reported: April 1, 2005, to September 30, 2005
requirements had not been addressed and
discrepancies existed in some elements in the system.         The review of the Comprehensive Human Resources
The report contained three recommendations; two               Integrated System identified user reluctance to use the
have been implemented.                                        system and the availability of duplicative system
                                                              functionality provided by other GSA systems. The
The remaining recommendation, which requires                  report contained three recommendations; two have
resolving all data element discrepancies and data             been implemented.
migration issues, is scheduled for completion on
June 15, 2007.                                                The remaining recommendation involves conducting
                                                              a post-implementation review. It is scheduled for
Contractor Assessment Initiative                              completion on October 15, 2007.
Period First Reported: April 1, 2005, to September 30, 2005
                                                              Review of FedBizOpps
The review focused on the Administrative Report Card          Period First Reported: April 1, 2004, to September 30, 2004
which was created to assist contracting officers in
making decisions about exercising contract options and        The review involved an online survey of FedBizOpps
awarding additional contracts. The report contained six       users to gather information on user satisfaction to
recommendations; three have been implemented.                 assess the effectiveness of FedBizOpps. The report
                                                              contained four recommendations; one has been
The remaining recommendations involve ensuring that           implemented.
all significant contractual areas are included on the
report card, integrating a rating and weighting system,       The remaining recommendations involve developing a
and providing guidance on formulating the Report              process to solicit input from vendors on system
Card and follow-up procedures on contractor                   enhancements,     evaluating   enhancements      to
deficiencies. They are scheduled for completion on            FedBizOpps based on vendor input, and ensuring that
May 15, 2007.                                                 memoranda of agreement are in place for FedBizOpps




40 Semiannual Report to the Congress
                    Appendix I–Significant Audits from Prior Reports




users. The recommendations are scheduled for
completion on June 15, 2007.

Consolidation of Distribution Centers
Period First Reported: October 1, 2002, to March 31, 2003

The review examined the operations of the FSS Stock
Program. The report contained two recommendations;
one has been implemented.

The remaining recommendation, which requires
developing access to reliable data for all delivery
methods, is scheduled for completion on August 15,
2007.




                                                            October 1, 2006 – March 31, 2007 41
                               Appendix II–Audit Report Register
                                                                                      Financial
                                                                                  Recommendations
                                                                              Funds to        Questioned
Date of        Audit                                                         Be Put to      (Unsupported)
Report         Number                    Title                               Better Use         Costs



(Note: Because some audits pertain to contract award or actions that have
not yet been completed, the financial recommendations related to these
reports are not listed in this Appendix.)

PBS Internal Audits
12/12/06        A060167         Review of Overtime Utility/Engineer
                                Billings at the Alfonse M. D’Amato
                                Courthouse in Central Islip, NY

12/28/06        A050263         Audit of PBS’s Use of Occupancy
                                Agreements as a Billing Source

PBS Contract Audits
10/04/06        A070001         Preaward Review of Architect Engineering
                                Services Contract: Kieran Timberlake
                                Associates, Solicitation Number GS-01P-
                                05-BZC-0004

11/03/06        A060207         Review of a Termination Settlement
                                Proposal: Sheen & Shine, Inc., Contract
                                Number GS-02P-06-DTC-0002(N)

01/10/07        A070074         Preaward Review of Cost or Pricing Data:
                                Monument Construction Corporation,
                                Solicitation Number GS-11P06MKC0081

01/30/07        A070080         Preaward Review of Architect Engineer
                                Proposal: Weidlinger Associates, Inc.,
                                Contract Number GS-11P-05-MKC-0095

01/31/07        A070078         Preaward Review of Architect Engineer
                                Proposal:   Westlake Reed Leskosky,
                                Contract Number GS-11P-05-MKC-0095

01/31/07        A070086         Preaward Review of Architect Engineer
                                Proposal: Cini-Little International, Inc.,
                                Solicitation Number GS-11P05MKC0095

02/05/07        A070079         Preaward Review of Architect Engineer
                                Proposal: The Protection Engineering
                                Group, PC, Solicitation Number GS-11P-
                                05-MKC-0095




42 Semiannual Report to the Congress
                      Appendix II–Audit Report Register
                                                                          Financial
                                                                      Recommendations
                                                                  Funds to        Questioned
Date of    Audit                                                 Be Put to      (Unsupported)
Report     Number              Title                             Better Use         Costs




03/13/07   A070087    Preaward Review of Change Order
                      Proposal: Bette & Cring, LLC, Contract
                      Number GS-02P-04-DTC-0041(N)

03/23/07   A070135    Preaward Review of Architect and
                      Engineering Services Contract: Hammond
                      Beeby Rupert Ainge, Inc., Solicitation
                      Number GS-04P-06-EX-C-0137

FSS Internal Audits
12/04/06   A060176    Validation of Operational Savings at the
                      Western Distribution Center, Federal
                      Supply Service

02/08/07   A060116    Audit of GSA Fleet’s Loss Prevention
                      Program, Federal Acquisition Service

FSS Contract Audits
10/04/06   A060146    Limited Scope Review of Multiple Award                              $9,404
                      Schedule Contract: Xiotech Corporation,
                      Contract Number GS-35F-0244L

10/11/06   A060120    Preaward Review of Multiple Award
                      Schedule Contract Extension: J. Walter
                      Thompson U.S.A., Inc., Contract Number
                      GS-23F-0265L

10/17/06   A060172    Preaward Review of Multiple Award
                      Schedule Contract Extension: Foster-
                      Miller, Inc., Contract Number GS-07F-
                      0040M

10/17/06   A060204    Preaward Review of Multiple Award
                      Schedule Contract Extension: Terrapin
                      Systems, LLC., Contract Number GS-35F-
                      0562L

10/19/06   A060112    Preaward Review of Multiple Award
                      Schedule Contract Extension: Securitas
                      Security Services USA, Inc., Contract
                      Number GS-07F-0314L




                                                                 October 1, 2006 – March 31, 2007 43
                               Appendix II–Audit Report Register
                                                                                    Financial
                                                                                Recommendations
                                                                            Funds to        Questioned
Date of        Audit                                                       Be Put to      (Unsupported)
Report         Number                    Title                             Better Use         Costs



10/24/06        A060148         Preaward Review of Multiple Award
                                Schedule Contract Extension: Kimball
                                International, Inc., Contract Number GS-
                                29F-0177G

10/25/06        A060193         Limited Scope Postaward Review of                               $2,455
                                Multiple Award Schedule Contract: Data
                                Solutions and Technology, Inc. (DST),
                                Contract Number GS-10F-0352L

10/25/06        A060171         Preaward Review of Multiple Award
                                Schedule Contract Extension:     Data
                                Solutions and Technology, Inc. (DST),
                                Contract Number GS-10F-0352L

10/27/06        A060189         Preaward Review of Multiple Award
                                Schedule Contract Extension:      AKAL
                                Security, Incorporated, Contract Number
                                GS-07F-0061M

10/27/06        A060227         Limited Scope Postaward Review of                            $795,371
                                Multiple Award Schedule Contract
                                Extension:     Network     Equipment
                                Technologies Federal, Inc., Contract
                                Number GS-35F-0205K

11/01/06        A050252         Review of Multiple Award Schedule
                                Contract Number GS-35F-4044D for the
                                Interim Period January 1, 2002 Through
                                August 31, 2005: Insight Public Sector,
                                Incorporated

11/08/06        A060129         Preaward Review of Multiple Award
                                Schedule Contract Extension: Scientific
                                Research Corporation, Contract Number
                                GS-23F-0125L

11/08/06        A060226         Preaward Review of Multiple Award
                                Schedule Contract Extension: Concentric
                                Security, LLC, Contract Number GS-07F-
                                0100M

11/15/06        A060160         Preaward Review of Multiple Award
                                Schedule Contract Extension:   Xerox
                                Corporation, Contract Number GS-25F-
                                0062L
44 Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                          Financial
                                                                      Recommendations
                                                                  Funds to        Questioned
Date of    Audit                                                 Be Put to      (Unsupported)
Report     Number             Title                              Better Use         Costs




11/16/06   A060159   Preaward Review of Multiple Award
                     Schedule      Contract     Extension:
                     Government Scientific Source, Inc.,
                     Contract Number GS-24F-1181B

11/16/06   A060187   Preaward Review of Multiple Award
                     Schedule Contract Extension:   CSC
                     Applied Technologies, LLC., Contract
                     Number GS-10F-0068M

11/21/06   A050179   Preaward Review of Multiple Award
                     Schedule Contract Extension:        ADT
                     Security Services, Inc., Contract Number
                     GS-07F-8854D

11/30/06   A060230   Preaward Review of Multiple Award
                     Schedule Contract Extension: General
                     Security Services Corporation, Contract
                     Number GS-07F-0305M

12/06/06   A060184   Preaward Review of Multiple Award
                     Schedule Contract: Ricoh Corporation,
                     Solicitation Number 3FNJ-C1-00-0001-B

12/06/06   A060131   Preaward Review of Multiple Award
                     Schedule Contract Extension:       Gill
                     Marketing Company, Contract Number GS-
                     07F-9252G

12/06/06   A060173   Preaward Review of Multiple Award
                     Schedule       Contract    Extension:
                     International Resources Group, LTD.,
                     Contract Number GS-10F-0076M

12/08/06   A060115   Preaward Review of Multiple Award
                     Schedule Contract Extension:   WFI
                     Government Services, Inc., Contract
                     Number GS-35F-0553L

12/21/06   A060244   Preaward Review of Multiple Award
                     Schedule Contract Extension: Wright Line,
                     Incorporated, Contract Number GS-29F-
                     0100G




                                                                 October 1, 2006 – March 31, 2007 45
                               Appendix II–Audit Report Register
                                                                                      Financial
                                                                                  Recommendations
                                                                              Funds to        Questioned
Date of        Audit                                                         Be Put to      (Unsupported)
Report         Number                    Title                               Better Use         Costs



12/21/06        A060202         Preaward Review of Multiple Award
                                Schedule Contract Extension:     Raba
                                Technologies, LLC, Contract Number GS-
                                35F-0063M

12/27/06        A060156         Preaward Review of Multiple Award
                                Schedule Contract Extension: Dynamic
                                Access Systems, LLC, Contract Number
                                GS-23F-0280L

01/03/07        A060222         Preaward Review of Multiple Award
                                Schedule Contract Extension: Appian
                                Corporation, Contract Number GS-35F-
                                0092M

01/08/07        A060098         Preaward Review of Multiple Award
                                Schedule Contract Extension: National
                                Research Corporation, Contract Number
                                GS-10F-0332L

01/12/07        A030052         Review of Multiple Award Schedule                             $1,539,212
                                Contract Number GS-35F-4572G for the
                                Interim Period May 1, 1997 Through March
                                31, 2002: GovConnection, Incorporated

01/30/07        A060218         Preaward Review of Multiple Award
                                Schedule Contract Extension: Square D
                                Company, Contract Number GS-07F-
                                9462G

02/01/07        A060220         Preaward Review of Multiple Award
                                Schedule Contract Extension: Touchstone
                                Consulting Group, Inc., Contract Number
                                GS-10F-0018M

02/02/07        A060201         Preaward Review of Multiple Award
                                Schedule Contract Extension: Life Fitness,
                                a division of Brunswick Corporation,
                                Contract Number GS-07F-9380G

02/05/07        A060180         Preaward Review of Multiple Award
                                Schedule Contract Extension:       BIT
                                Systems, Inc., Contract Number GS-35F-
                                0170M



46 Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                          Financial
                                                                      Recommendations
                                                                  Funds to        Questioned
Date of    Audit                                                 Be Put to      (Unsupported)
Report     Number             Title                              Better Use         Costs




02/15/07   A070045   Preaward Review of Multiple Award
                     Schedule Contract Extension: Fontaine
                     Trailer Company, Contract Number GS-
                     30F-0011M

02/20/07   A060212   Preaward Review of Multiple Award
                     Schedule Contract Extension: Information
                     Management Consultants, Inc., Contract
                     Number GS-35F-4406G

02/21/07   A060188   Preaward Review of Multiple Award
                     Schedule Contract Extension:       Sharp
                     Electronics Corporation, Contract Number
                     GS-25F-0037M

03/05/07   A060238   Preaward Review of Multiple Award
                     Schedule Contract Extension:       JB
                     Management, Inc., Contract Number GS-
                     35F-0106M

03/06/07   A060237   Preaward Review of Multiple Award
                     Schedule Contract Extension:      RWC
                     Consulting Group, LLC, Contract Number
                     GS-23F-0089M

03/06/07   A070065   Preaward Review of Multiple Award
                     Schedule Contract:       Peter Le Bas
                     International Air Division, Incorporated,
                     Solicitation Number 7FCI-L3-03-0084-B

03/07/07   A070011   Preaward Review of Multiple Award
                     Schedule Contract Extension: Black &
                     Veatch Special Projects Corporation,
                     Contract Number GS-10F-0291M

03/08/07   A060233   Preaward Review of Multiple Award
                     Schedule Contract: Precor, Incorporated,
                     Solicitation Number 3FNG-MG-06-0002-N

03/08/07   A070048   Preaward Review of Multiple Award
                     Schedule Contract Extension: The MIL
                     Corporation, Contract Number GS-35F-
                     4670G




                                                                 October 1, 2006 – March 31, 2007 47
                               Appendix II–Audit Report Register
                                                                                      Financial
                                                                                  Recommendations
                                                                              Funds to        Questioned
Date of        Audit                                                         Be Put to      (Unsupported)
Report         Number                    Title                               Better Use         Costs



03/14/07        A070047         Preaward Review of Multiple Award
                                Schedule Contract Extension: Draeger
                                Safety, Inc., Contract Number GS-07F-
                                9510G

03/22/07        A070093         Preaward Review of Multiple Award
                                Schedule Contract Extension: Cexec, Inc.,
                                Contract Number GS-35F-4453G

03/26/07        A060216         Preaward Review of Multiple Award
                                Schedule Contract Extension:     JHM
                                Research & Development, Inc., Contract
                                Number GS-25F-0020M

FTS Contract Audits
10/31/06        A060206         Postaward Review of Lease Costs and                           $4,026,287
                                Pricing Data:     Information Systems
                                Support, Incorporated, Contract Number
                                GS-09K-99-BHD-0006

FAS Internal Audits
12/27/06        A050213         Review of Award for Streamlined
                                Technology Acquisition Resources for
                                Services (STARS) Government-wide
                                Acquisition Contract (GWAC)

03/06/07        A060149         Review of eOffer/eMod, GSA’s Electronic
                                Contract Proposal and Modification
                                System

03/30/07        A070101         Limited Scope Audit of Disaster Reporting
                                Through the Federal Procurement Data
                                System - Next Generation

Other Internal Audits
10/11/06        A060135         General Services Administration Office of
                                Inspector General’s AUP Report Re:
                                Payroll Information Submitted to OPM

10/19/06        A060135         Review of Internal Controls Over Payroll -
                                FY2006




48 Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                           Financial
                                                                       Recommendations
                                                                   Funds to        Questioned
Date of    Audit                                                  Be Put to      (Unsupported)
Report     Number             Title                               Better Use         Costs




11/01/06   A060224   Limited Audit of the Fiscal Year 2006
                     Federal Managers’ Financial Integrity Act
                     Section 2 and Section 4 Assurance
                     Statements

11/02/06   A070007   Report on Internal       Controls    Over
                     Performance Measures

11/14/06   A050197   Review of GSA’s Telework Program

01/03/07   A060169   Review of Pegasys Account Balance and
                     Transaction Analysis - Unfilled Customer
                     Orders

01/31/07   A060134   Audit    of    the    General     Services
                     Administration’s Fiscal Year 2006 and 2005
                     Financial Statements

01/31/07   A060134   PricewaterhouseCoopers LLP Fiscal Year
                     2006 EDP Management Recommendation
                     Letter

02/26/07   A060055   Audit of GSA’s Response to Hurricane
                     Katrina

Non-GSA Internal Audits
10/06/06   A060134   Report    on Applying Agreed-Upon
                     Procedures Re: FY 2006 Fund Balance
                     with Treasury

11/07/06   A060134   Report   on Applying        Agreed-Upon
                     Procedures    Re: FY        2006   Loss
                     Contingencies

11/07/06   A060134   Report      on Applying Agreed-Upon
                     Procedures Re: FY 2006 Environmental
                     Liabilities




                                                                  October 1, 2006 – March 31, 2007 49
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending

Public Law 104-106 requires the head of a Federal             In GSA, the Office of the Chief Financial Officer (OCFO)
agency to complete final action on each management            is responsible for monitoring and tracking open
decision required with regard to a recommendation in          recommendations. While we continue to assist the
an Inspector General's report within 12 months after the      Agency in resolving these open items, various litigative
date of the report. If the head of the Agency fails to        proceedings, continuing negotiations of contract
complete final action within the 12-month period, the         proposals, and corrective actions needed to undertake
Inspector General shall identify the matter in the            complex and often phased-in implementing actions
semiannual report until final action is complete.             often delay timely completion of the final action.

The OCFO provided the following list of reports with action items open beyond 12 months:


Date of         Audit
Report          Number                                            Title


Contract Audits
03/21/97        A70632           Preaward Audit of Change Order Proposal: Expert Electric, Inc., Contract Number
                                 GS-02P-94-CUC-0033(N)

08/05/97        A73617           Refund From The Committee For Purchase From People Who Are Blind Or
                                 Severely Disabled, Agreement Number GS-02F-61511

05/27/98        A42146           Postaward Audit of Multiple Award Schedule Contract: Haworth, Incorporated,
                                 Contract Number GS-00F-07010

06/17/98        A82441           Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc.,
                                 Contract Number GS-09P-95-KTC-0010

02/05/99        A995113          Preaward Audit of Supplemental Architect and Engineering Services Contract: Van
                                 Deusen & Associates, Solicitation Number GS-02P-98-PLD-0029(N)

03/24/99        A995128          Preaward Audit of Cost or Pricing Data: Sachs Electric Company, Subcontractor to
                                 Morse Diesel International, Inc., Contract Number GS06P95GZC0501

06/24/99        A995231          Audit of Small Business Subcontracting Plan: Rael Automatic Sprinkler Company,
                                 GS-02P-95-DTC-0041(N)

07/07/99        A995249          Audit of Small Business Subcontracting Plan: L. Martone and Sons, Inc., Contract
                                 Number GS-02P-95-DTC-0041(N)

10/13/99        A995262          Preaward Audit of a Claim: Metropolitan Steel Industries, Inc., Subcontractor to
                                 Turner Construction Company, Contract GS-02P-95-DTC-0014(N)

10/26/99        A995278          Preaward Audit of a Claim: Midlantic Erectors, Inc., Subcontractor to Metropolitan
                                 Steel Industries, Inc., Contract Number GS-02P-95-DTC-0014(N)

11/04/99        A995272          Preaward Audit of a Claim: Metropolitan Steel Industries, Inc., Subcontractor to
                                 Turner Construction Company, Contract Number GS-02P-95-DTC-0014(N)

11/10/99        A995271          Preaward Audit of Architect and Engineering Services Contract: HLW International
                                 LLP, Contract Number GS-02P-93-CUC-0062


50 Semiannual Report to the Congress
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of    Audit
Report     Number                                  Title


06/01/00   A000971   Audit of Claims for Increased Costs: Midwest Curtainwalls, Inc., The Federal
                     Triangle Project

07/19/00   A000940   Preaward Audit of a Claim: Coken Company, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

08/24/00   A000941   Preaward Audit of a Claim: Centrifugal/Mechanical Associates, Inc., Subcontractor
                     to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

10/17/00   A001024   Preaward Audit of a Claim: Canron Fabrication Corp., Second-Tier Subcontractor
                     to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

10/30/00   A000942   Preaward Audit of a Claim: Centrifugal/Mechanical Associates, Inc., Subcontractor
                     to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

01/29/01   A000909   Preaward Audit of a Claim: Turner Construction Company, Contract Number GS-
                     02P-95-DTC-0014

02/08/01   A010089   Audit of a Claim for Increased Costs: Palafox Street Associates, L.P., Federal
                     Courthouse, Pensacola, FL, Lease Number GS-04B-35055

04/30/01   A010127   Audit of Billings under Contract Number GS06P99GZC0315: DKW Construction,
                     Inc.

07/31/01   A001055   Preaward Audit of a Claim: Heritage Air Systems, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

10/18/01   A63630    Postaward Audit of Multiple Award Schedule Contract: The Presidio Corporation,
                     Contract Number GS00K-95-AGS-6170, Contract Period April 1, 1995 through
                     March 31, 1996

10/31/01   A010265   Preaward Audit of Architect and Engineering Services Contract: HNTB District of
                     Columbia Architecture, P.C., Solicitation Number GS-11P-00-MQC-0041

01/11/02   A010281   Preaward Audit of a Claim for Increased Costs: Lawson Mechanical Contractors,
                     Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

02/20/02   A010138   Preaward Audit of a Claim: Heritage Air Systems, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

04/03/02   A010263   Preaward Audit of a Claim: Island ADC, Inc., Subcontractor to Turner Construction
                     Company, Contract Number GS-02P-95-DTC-0014

04/18/02   A010248   Preaward Audit of a Claim: LBL Skysystems, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014



                                                                    October 1, 2006 – March 31, 2007 51
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of        Audit
Report         Number                                         Title


04/26/02        A010262         Preaward Audit of a Claim: Coken Company, Inc., Subcontractor to Turner
                                Construction Company, Contract Number GS-02P-95-DTC-0014

04/30/02        A020101         Preaward Audit of a Claim, Additional Change Items: Turner Construction
                                Company, Contract Number GS-02P-95-DTC-0014

05/16/02        A020115         Limited Scope Audit of a Termination Claim: Patriot Group Contractors, Inc.,
                                Contract Number GS-11P-99-MAC-0006

05/29/02        A020124         Preaward Audit of a Claim for Increased Costs: Res-Com Insulation, Inc.,
                                Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

05/29/02        A020109         Preaward Audit of a Claim: Schindler Elevator Corporation, Subcontractor to Turner
                                Construction Company, Contract Number GS-02P-95-DTC-0014

06/12/02        A020097         Preaward Audit of a Claim for Increased Costs: Artisans G & H Fixtures, Inc.,
                                Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

06/27/02        A010239         Preaward Audit of a Claim: Turner Construction Company, Contract Number GS-
                                02P-95-DTC-0014

07/16/02        A020191         Preaward Audit of Supplemental Architect and Engineering Contract: McMullan &
                                Associates, Inc., Solicitation Number GS-11P-01-YTD-0319

07/30/02        A020086         Preaward Audit of a Claim for Increased Costs: Raymond Interior Systems North,
                                Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

09/04/02        A020180         Preaward Audit of Architect and Engineering Services Contract: Adtek Engineering,
                                Inc., Solicitation Number GS-11P-01-YTD-0319

09/24/02        A020196         Preaward Audit of Architect and Engineering Services Contract: BEI Structural
                                Engineers, Inc., Solicitation Number GS-11P-01-YTD-0319

09/26/02        A020201         Preaward Audit of a Claim: Almar Plumbing and Heating Corp., Subcontractor to
                                Turner Construction Company, Contract Number GS-02P-95-DTC-0014

10/02/02        A020178         Preaward Audit of Multiple Award Schedule Contract Modification: Motorola, Inc.,
                                GSA Contract Number GS-35F-0004L

11/14/02        A020223         Preaward Audit of a Claim: Fine Painting Co., Inc., Subcontractor to Turner
                                Construction Company, Contract Number GS-02P-95-DTC-0014

11/20/02        A010279         Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc.,
                                New U.S. Courthouse & Federal Building, Sacramento, California, Contract
                                Number GS-09P-95-KTC-0032

52 Semiannual Report to the Congress
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of    Audit
Report     Number                                  Title


01/30/03   A020248   Audit of Claim for Increased Costs: Doan/Lake Erie LLC, Contract Number GS-
                     05P-99-GBC-0012

03/14/03   A020197   Preaward Audit of a Claim: Rael Automatic Sprinkler Co., Inc., Subcontractor to
                     Turner Construction Company, Contract Number GS-02P-95-DTC-0014

03/21/03   A020133   Preaward Audit of a Claim for Increased Costs: Cosco Fire Protection, Inc.,
                     Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

03/25/03   A030140   Limited Scope Review of Termination Claim: Science Applications International
                     Corporation, Contract Number GS-35F-4461G, Task Order Number T0002SJ0159

05/02/03   A030106   Preaward Audit of a Claim for Increased Costs: George Foss Company,
                     Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

05/29/03   A020230   Preaward Audit of a Claim for Increased Costs: C. E. Toland & Son, Subcontractor
                     to Morse Diesel International, Inc., New U.S. Courthouse & Federal Building,
                     Sacramento, California, Contract Number GS-09P-95-KTC-0032

06/02/03   A030138   Audit of Claim for Increased Costs: Hunt Construction Group, Inc., Contract
                     Number GS-05P-96-GBC-0015

07/02/03   A030163   Preaward Audit of Multiple Award Schedule Contract Extension:         Information
                     Network Systems, Inc., Contract Number GS-35F-5002H

08/08/03   A030177   Review of Incurred Costs: Jacobs Facilities, Inc., Contract Number GS-11P-98-
                     MYD-0015

12/17/03   A030168   Preaward Audit of Multiple Award Schedule Contract: Dynamic Systems, Inc.,
                     Solicitation Number FCIS-JB-980001B

12/17/03   A040001   Preaward Audit of Multiple Award Schedule Contract: Concord Communications,
                     Incorporated, Solicitation Number FCIS-JB-980001B

01/12/04   A040098   Preaward Audit of Supplemental Architect and Engineering Services Contract:
                     Gonzalez Hasbrouck, Inc., Solicitation Number GS-05P-03-GBD-0072

01/13/04   A030265   Interim Audit of Multiple Award Schedule Contract: BearingPoint, LLC, Contract
                     GS-23F-9796H

02/03/04   A040119   Attestation Review of Supplemental Architect and Engineering Services Contract:
                     Julie Snow Architects, Inc., Solicitation Number GS-05P-03-GBD-0072

03/09/04   A040162   Price Adjustments on Multiple Award Schedule Contract: Nova Solutions, Inc.,
                     Contract Number GS-29F-0173G, for the Interim Period April 1, 2004 Through
                     September 30, 2006

                                                                    October 1, 2006 – March 31, 2007 53
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of        Audit
Report         Number                                           Title


03/09/04        A030186         Postaward Audit of Multiple Award Schedule Contract: Nova Solutions, Inc.,
                                Contract Number GS-29F-0173G, for the Contract Period December 12, 1996
                                Through October 31, 2003

06/03/04        A040091         Audit of Claim for Increased Costs: Industrial First, Inc., Subcontractor to Hirschfeld
                                Steel Co., Inc., Contract Number GS-05P-97-GBC-0011

06/08/04        A040165         Audit of Claim for Increased Costs: Industrial First, Inc., Subcontractor to Ajay
                                Glass & Mirror Co., Inc., Contract Number GS-05P-97-GBC-0011

06/09/04        A040095         Preaward Audit of a Termination Settlement Proposal: M.L. Benjamin Enterprises,
                                Inc., Contract Number GS-02P-00P-VC-0024

06/15/04        A040095         Audit of Final Contract Payment: M.L. Benjamin Enterprises, Inc., Contract Number
                                GS-02P-00P-VC-0024

06/28/04        A040085         Limited Scope Postaward Audit of Multiple Award Schedule Contract: Onboard
                                Software, Inc., Contract Number GS-35F-0117J

07/01/04        A040143         Review of Claim for Increased Costs: SimplexGrinnell, LP, GS-05P-99-GBC-0015

07/12/04        A040125         Attestation Engagement Review of A/E Services Contract: Cannon Design, Inc.,
                                Solicitation Number GS-02P-03-DTC-0003

10/29/04        A040211         Preaward Review of Multiple Award Schedule Contract Extension: Allsteel Inc.,
                                Contract Number GS-28F-0010J

12/30/04        A050083         Attestation Engagement Review of Claim for Increased Costs: LDI Metalworks,
                                Inc., Subcontractor to Mitchell Enterprises, Inc., Contract Number GS-07P-00-
                                UJC-0007

04/06/05        A050059         Preaward Review of Multiple Award Schedule Contract: Cort Business Services,
                                Solicitation Number 3FNO-M1-010001-B

05/10/05        A050112         Preaward Review of Multiple Award Schedule Contract Extension: Entrust, Inc.,
                                Contract Number GS-35F-0332K

06/17/05        A050100         Preaward Review of Multiple Award Schedule Contract Extension: Technical and
                                Management Services Corporation, Contract Number GS-00F-0020L

06/24/05        A050077         Preaward Audit of Cost or Pricing Data: DPRA, Inc., Contract Number GS-00F-
                                0030L

07/08/05        A050007         Preaward Review of Multiple Award Schedule Contract Extension: Network
                                Equipment Technologies Federal, Inc., Contract Number GS-35F-0205K




54 Semiannual Report to the Congress
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of    Audit
Report     Number                                 Title


07/08/05   A050138   Review of Claim: Nason and Cullen, Inc., Contract Number GS-03B-02301

08/04/05   A050203   Preaward Review of Architect Engineer Proposal: Skidmore, Owings and Merrill,
                     LLP, Contract Number GS-05P-04-GBC-0057

08/15/05   A050157   Review of Termination Settlement Proposal: CompuCom Federal Systems, Inc.,
                     Contract Number GS00K97AFD2226

09/07/05   A050125   Preaward Review of Multiple Award Schedule Contract Extension:      Steelcase,
                     Incorporated, Contract Number GS-28F-8021H

09/12/05   A050151   Preaward Review of Multiple Award Schedule Contract Extension:          Global
                     Computer Enterprises, Inc., Contract Number GS-35F-0426K

10/07/05   A050089   Limited Scope Review of Multiple Award Schedule Contract:             Hill-Rom
                     Company, Inc., Contract Number GS-27F-3002D

10/12/05   A050105   Preaward Review of Multiple Award Schedule Contract Extension: BCOP Federal,
                     Contract Number GS-14F-0035K

11/30/05   A050147   Limited Scope Review of Task Order F11623-02-F-A425 Multiple Award Schedule
                     Contract: Herman Miller, Inc., Contract GS-28F-8049H

12/12/05   A050243   Preaward Review of Multiple Award Schedule Contract Extension: Community
                     Research Associates, Inc., Contract Number GS-10F-0088L

12/30/05   A050176   Preaward Review of Multiple Award Schedule Contract Extension: E.F. Johnson
                     Company, Contract Number GS-35F-0675K

01/05/06   A050247   Preaward Review of Price Adjustment Claim: Lockheed Martin Information
                     Technology, Task Order Number 103BK0034, Contract Number GS-35F-4039G

01/18/06   A060058   Limited Review of Payroll Burden & Overhead Rates: Volmar Construction, Inc.,
                     Contract Number GS-02P-04-DTC-0029(N)

01/26/06   A050122   Preaward Review of Multiple Award Schedule Contract Extension:        Fastenal
                     Company, Contract Number GS-06F-0039K

01/30/06   A050241   Preaward Review of Multiple Award Schedule Contract Extension:         National
                     Security Research, Inc., Contract Number GS-23F-0416K

03/06/06   A050257   Preaward Review of Multiple Award Schedule Contract Extension:       Innovative
                     Emergency Management, Inc., Contract Number GS-10F-0178L

03/07/06   A060128   Preaward Review of Architect and Engineering Contract:     William H. Gordon
                     Associates, Inc., Solicitation Number GS-11P-05-MKC-0045



                                                                  October 1, 2006 – March 31, 2007 55
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of        Audit
Report         Number                                        Title


03/16/06        A050233         Preaward Review of Multiple Award Schedule Contract Extension:          Nortel
                                Networks, Inc., Contract Number GS-35F-0140L

03/16/06        A060078         Interim Postaward Review of Multiple Award Schedule Contract: State Industrial
                                Products, Contract Number GS-06F-0004L

03/28/06        A050255         Preaward Review of Multiple Award Schedule Contract Extension: Advanced
                                Information Engineering Services, Inc., Contract Number GS-10F-0237L

03/30/06        A050248         Postaward Review of Lease Costs and Pricing Data: Information Systems
                                Support, Incorporated, Contract Number GS-09K-BHD-0006




56 Semiannual Report to the Congress
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of    Audit                                                                        Projected Final
Report     Number                                   Title                                Action Date


Internal Audits
03/18/03   A020161   Audit of the Consolidation of Distribution Center Operations:        08/15/2007
                     Impact on Shipment Costs & Delivery Times

08/05/04   A020245   Review of FedBizOpps                                                 06/15/2007

03/28/05   A040132   Audit of FTS Working Capital/Reserve Fund Levels                           Open

05/03/05   A040109   Audit of the General Services Administration's Fiscal Years 2004     07/15/2007
                     and 2003 Financial Statements

09/29/05   A040252   Audit of FSS's Contractor Assessment Initiative (CasI)               05/15/2007

09/29/05   A040246   Review of the GSA Advantage! System                                  06/15/2007

09/30/05   A040142   Strategic Challenges for GSA's Comprehensive Human                   10/15/2007
                     Resources Integrated System (CHRIS )

01/23/06   A050008   Review of CONNECTIONS Program Contract, Federal                      04/15/2007
                     Acquisition Service

02/28/06   A050192   PricewaterhouseCoopers LLP Fiscal           Year   2005    EDP             Open
                     Management Recommendation Letter

03/28/06   A050040   Review of the PBS Environment Program Management                     06/15/2007

03/30/06   A040127   Review of the Federal Procurement Data System–Next                   06/15/2007
                     Generation (FPDS–NG)

03/31/06   A050063   Audit of PBS's Tenant Improvement Process                            04/15/2007

03/31/06   A050135   Audit of the Usage of Facility Management Schedules                  05/15/2007




                                                                     October 1, 2006 – March 31, 2007 57
                                  Appendix IV–Delinquent Debts




The GSA Office of the Chief Financial Officer provided the following information.

GSA Efforts to Improve Debt                               • Several claims have been transferred from the
                                                            Billings Unit to the Claims Unit after the Billings Unit
Collection
                                                            had been unsuccessful in collecting the outstanding
During the period October 1, 2006 through March 31,         balance. The Claims Unit will reestablish contact
2007, the following activities were undertaken by GSA       with the debtor and forward delinquency notices in
in an effort to improve debt collection and reduce the
                                                            order to collect the debt. If the debt is not collected
amount of debt written off as uncollectible.
                                                            in 2 years, then GSA will write off the uncollected
• From October 1, 2006 to March 31, 2007, the GSA           claims in accordance with the Office of Management
  Finance Centers referred approximately $1.4 million       and Budget (OMB) Circular A-129, Managing
  of delinquent non-Federal claims to the U.S.              Federal Credit Programs; however, claims which are
  Department of the Treasury (Treasury) for cross-          written off from debtors for which Treasury has a
  servicing collection activities.   Collections on         Taxpayer Identification Number (TIN) or Social
  non-Federal claims exceeded $50.7 million.                Security Number will remain in the Treasury Offset
  Administrative offsets have resulted in additional
                                                            Program for up to 10 years.
  collections of $5.2 million. GSA also collects
  non-Federal claims using Pre-Authorized Debits
                                                          • The Fleet Accident Management Center (AMC) has
  (PAD). From October 1, 2006 to March 31, 2007,
                                                            two new procedures intended to increase collection
  125 PADs totaling $48,089 were processed.
                                                            and reduce the number of claims written off. The
• To comply with the Debt Collection Improvement Act        first procedure is to review and verify that all the
  of 1996, GSA transmits delinquent claims each             information about the debtor is correct, and that a
  month to Treasury, Financial Management Service           valid legal claim exists. The goal is to reduce the
  (FMS ) for collection.                                    number of vehicle accident claims returned
                                                            uncollected from Treasury and written off because
• Claims procedures have been revised to improve            they are invalid. The second procedure is to review
  claims management and control. A new claims               all uncollected vehicle claims returned by Treasury.
  database was established for use by the Greater           If the insurance information on the debtor is
  Southwest Finance Center that will aid in the aging       available, the AMC will call the debtor insurance
  and monitoring of claims activity.          We also
                                                            company and attempt to collect the claim. This
  implemented a new procedure that includes
                                                            procedure has allowed the AMC to collect several
  monthly distribution of claims information to Federal
  Acquisition Service (FAS) Business Managers.              old vehicle claims.

• Our collections for the District of Columbia (DC)       • Management has continued to place a high priority
  Government have significantly improved. As of             on resolving delinquent accounts. Communications
  March 31, 2007, the DC Government owed GSA                have increased between GSA client agencies and
  $73 for one supply bill over 200 days old. All other      the service representative to resolve questions and
  supply bills are under 180 days old.                      to increase collections.




58 Semiannual Report to the Congress
                                 Appendix IV–Delinquent Debts




The GSA Office of the Chief Financial Officer provided the following information.

Non-Federal Accounts Receivable

                                                  As of                   As of
                                              October 1, 2006         March 31, 2007            Difference

  Total Amounts Due GSA                        $159,520,284           $142,226,646           ($17,293,638)

  Amounts Delinquent                            $16,633,579            $11,400,858             ($5,232,721)

  Total Amount Written
  Off as Uncollectible
  Between 10/1/06 and
  3/31/07                                          $840,955




                                                                                October 1, 2006 – March 31, 2007 59
   Appendix V–Report over 6 Months Old with No Management Decision


Date of         Audit
Report          Number                                          Title


09/29/06       A050078         Review of Federal Systems Integration and Management Center (FEDSIM)


Pursuant to Section 5(a)(10) of the Inspector General       as a result the Government accepted substandard
Act of 1978, the OIG must summarize each audit              services and, in some cases, did not receive all
report over 6 months old for which no                       services.     Additionally, we found that business
management decision has been made. During the               practices can be improved to increase price
period, management decision was not achieved on the
                                                            competition. FEDSIM publishes fairly narrow cost
Review of Federal Systems Integration and
Management Center (FEDSIM), which, at the time of           ranges derived from government estimates in its
the audit, was part of the former Federal Technology        solicitations. We found that the published cost ranges
Service (FTS).                                              and hours drove the contractor proposals rather than
                                                            the contractors proposing innovative solutions
FEDSIM provides information technology (IT) solutions       predicated on the tasks to be performed.
for Federal agencies by contracting with private sector
vendors. FEDSIM uses a variety of contract vehicles         Several attempts to achieve management decision
to provide the larger, often complex, IT solutions to the   were made by the OIG. FEDSIM requested time
Federal agencies it serves. FEDSIM provides the             extensions to respond to the audit in order to develop
acquisition services and project management
                                                            the audit resolution action plan. It cited, as a cause for
throughout a project’s life on a reimbursable basis. In
2004, FEDSIM generated about $1.4 billion in                the additional time, the ongoing GSA reorganization
revenue with DoD clients representing approximately         that abolished the FTS and integrated it into a new
60 percent of the business.                                 Federal Acquisition Service (FAS), and the subsequent
                                                            loss of continuity resulting from reassignment and
The OIG initiated a review and found that FEDSIM was        relocation of FTS personnel into the new organization.
generally complying with the Federal Acquisition            When the action plan was eventually submitted, it was
Regulation but there were opportunities for improving       rejected by the OIG because it did not address in
task order management and increasing price
                                                            sufficient detail some recommendations and did not
competition. Specifically, the terms and conditions of
                                                            address others. FAS management has informed the
task orders were not always enforced. There were
problems with contractor invoicing, contractor travel,      OIG that management decision documents have been
unexplained costs, and security clearances which we         prepared and will be forwarded as soon as senior
believe were caused by an over reliance on outside          management has an opportunity to review them.
parties to supply information and support. Some
invoices were approved without adequate support and




60 Semiannual Report to the Congress
                                     Appendix VI–Reporting Requirements




The table below cross-references the reporting require-                           Congress in Senate Report No. 96-829 relative to the
ments prescribed by the Inspector General Act of 1978,                            1980 Supplemental Appropriations and Rescission Bill
as amended, to the specific pages where they are                                  and the National Defense Authorization Act is also
addressed.     The information requested by the                                   cross-referenced to the appropriate page of the report.




  Requirement                                                                                                                                    Page

  Inspector General Act

     Section 4(a)(2) – Review of Legislation and Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .28

     Section 5(a)(1) – Significant Problems, Abuses, and Deficiencies. . . . . . . . . . . . . . . . . . . . . . . . . .2, 16

     Section 5(a)(2) – Recommendations with Respect to Significant
      Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2, 16

     Section 5(a)(3) – Prior Recommendations Not Yet Implemented . . . . . . . . . . . . . . . . . . . . . . . . . . . .39

     Section 5(a)(4) – Matters Referred to Prosecutive Authorities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .34

     Sections 5(a)(5) and 6(b)(2) – Summary of Instances Where
      Information Was Refused. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(6) – List of Audit Reports. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .42

     Section 5(a)(7) – Summary of Each Particularly Significant Report. . . . . . . . . . . . . . . . . . . . . . . . .2, 16

     Section 5(a)(8) – Statistical Tables on Management Decisions on
      Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .33

     Section 5(a)(9) – Statistical Tables on Management Decisions on
      Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .32

     Section 5(a)(11) – Description and Explanation for Any Significant
      Revised Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(12) – Information on Any Significant Management
      Decisions with Which the Inspector General Disagrees. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

  Senate Report No. 96-829

     Resolution of Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .31

     Delinquent Debts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .58

  National Defense Authorization Act, Public Law 104-106, 5 U.S.C. App. 3, § 5 note . . . . . . . . . . .50




                                                                                                                October 1, 2006 – March 31, 2007 61
                            Appendix VII–OIG Offices and Key Officials



     Office of the Inspector General
     Inspector General, Brian D. Miller (J) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0450

     Deputy Inspector General, Joseph M. Mastropietro (Acting) (JD) . . . . . . . . . . . . . . . . . . . .(202) 501-0450

     Advisor, Robert M. Samuels (JX) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0450


     Office of Counsel to the Inspector General
     Counsel to the IG, Kevin A. Buford (JC) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1932

     Deputy Counsel to the IG, Virginia S. Grebasch (JCD) . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1932


     Office of Internal Evaluation and Analysis
     Director, Peter J. Coniglio (JE) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-2460


     Office of Audits
     Assistant IG for Auditing, Andrew Patchan, Jr. (JA) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0374

     Principal Deputy Assistant IG for Auditing, Vacant (JAD) . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0374


     Deputy Assistant Inspectors General for Auditing
     Information Technology Audit Office, Gwendolyn A. McGowan (JA-T) . . . . . . . . . . . . . . . .(703) 308-1223

     Real Property Audit Office, Rolando N. Goco (JA-R) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 219-0088

     Finance & Administrative Audit Office, Jeffrey C. Womack (JA-F) . . . . . . . . . . . . . . . . . . .(202) 501-0006

     Acquisition Programs Audit Office, Kenneth L. Crompton (JA-A) . . . . . . . . . . . . . . . . . . . .(703) 603-0189

     Contract Audit Office, James M. Corcoran (JA-C) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(617) 565-6795


     Regional Inspectors General for Auditing
     National Capital Region Field Office, Paul J. Malatino (JA-W) . . . . . . . . . . . . . . . . . . . . . .(202) 708-5340

     Northeast and Caribbean Field Office, Howard R. Schenker (Acting) (JA-2) . . . . . . . . . . .(212) 264-8620

     Mid-Atlantic Field Office, Glenn D. Merski (JA-3) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(215) 446-4840

     Southeast Sunbelt Field Office, James D. Duerre (JA-4) . . . . . . . . . . . . . . . . . . . . . . . . . .(404) 331-5125

     Great Lakes Field Office, David K. Stone (JA-5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(312) 353-7781


62 Semiannual Report to the Congress
                            Appendix VII–OIG Offices and Key Officials




Regional Inspectors General for Auditing (continued)
The Heartland Field Office, Arthur L. Elkin (JA-6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(816) 926-7052

Greater Southwest Field Office, Rodney J. Hansen (JA-7) . . . . . . . . . . . . . . . . . . . . . . . . .(817) 978-2572

Pacific Rim Field Office, James P. Hayes (JA-9) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(415) 522-2744


Office of Investigations
Assistant IG for Investigations, Charles J. Augone (JI) . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1397

Deputy Assistant IG for Investigations, Gregory G. Rowe (Acting) (JID) . . . . . . . . . . . . . . .(202) 501-1397



Special Agents in Charge (SAC)
National Capital Regional Office, SAC Randal A. Stewart (JI-W) . . . . . . . . . . . . . . . . . . . .(202) 252-0008

  Philadelphia Resident Office, Assistant SAC James E. Adams (JI-3) . . . . . . . . . . . . . . .(215) 446-4830

Northeast and Caribbean Regional Office, SAC Daniel J. Walsh (JI-2) . . . . . . . . . . . . . . .(212) 264-7300

  Boston Resident Office, Assistant SAC Luis A. Hernandez (JI-1) . . . . . . . . . . . . . . . . . .(617) 565-6820

Southeast Regional Office, SAC Lee P. Quintyne (JI-4) . . . . . . . . . . . . . . . . . . . . . . . . . . .(404) 331-5126

Great Lakes Regional Office, SAC Harvey G. Florian (JI-5) . . . . . . . . . . . . . . . . . . . . . . . .(312) 353-7779

Heartland Regional Office, SAC John F. Kolze (JI-6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(816) 926-7214

Southwest Regional Office, SAC Paul W. Walton (JI-7) . . . . . . . . . . . . . . . . . . . . . . . . . . .(817) 978-2589

Pacific Rim Regional Office, SAC Liza Shovar (JI-9) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(415) 522-2755

Northwest Regional Office, SAC Terry J. Pfeifer (JI-10) . . . . . . . . . . . . . . . . . . . . . . . . . . .(253) 931-7654


Office of Administration
Assistant IG for Administration, Arrie Etheridge (JP) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-2319

  Human Resources Division, Director Arrie Etheridge (JPH) . . . . . . . . . . . . . . . . . . . . . .(202) 501-0360

  Information Technology Division, Director Margaret A. Hamilton (JPM) . . . . . . . . . . . . .(202) 501-3134

  Administrative and Financial Management Division, Director Marta M. Viera (JPF) . . . .(202) 501-2887




                                                                                                October 1, 2006 – March 31, 2007 63
                                       Notes




64 Semiannual Report to the Congress
Notes




        October 1, 2006 – March 31, 2007 65
                                       Notes




66 Semiannual Report to the Congress
Make
like
i
ts
your
money!
Itis.
To report suspected waste, fraud, abuse, or
mismanagement in GSA, call your


Inspector General’s Hotline
Toll-free 1-800-424-5210
Washington, DC metropolitan area
(202) 501-1780

or write: GSA, IG, Hotline Officer
          Washington, DC 20405

or access the Web: www.gsa.gov/fraudnet

Office of Inspector General
U.S. General Services Administration
Office of Inspector General
U.S. General Services Administration
1800 F Street, NW
Washington, DC 20405
http://www.gsa.gov/inspectorgeneral
